<html>
<title> - COMPULSORY UNIONIZATION THROUGH GRIEVANCE FEES: THE NLRB'S ASSAULT ON RIGHT-TO-WORK</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


            COMPULSORY UNIONIZATION THROUGH GRIEVANCE FEES:
                  THE NLRB'S ASSAULT ON RIGHT TO WORK

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JUNE 3, 2015

                               __________

                           Serial No. 114-17

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                           U.S. GOVERNMENT PUBLISHING OFFICE
94-824 PDF                     WASHINGTON : 2016                           
               
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  
                
               
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 3, 2015.....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby,'' Ranking Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     9

Statement of Witnesses:
    Bruno, Robert, Dr., Professor, School of Labor and Employment 
      Relations, University of Chicago Illinois, Chicago, IL.....    25
        Prepared statement of....................................    27
    Gould, Elise, Dr., Senior Economist and Director of Health 
      Policy Research, Economic Policy Institute, Washington, DC.    42
        Prepared statement of....................................    44
    Hewitt, Walter, Mr., Management Information Systems Director, 
      United Way of Southeastern Connecticut, Uncasville, CN.....    18
        Prepared statement of....................................    20
    Mix, Mark, Mr., President, National Right to Work Committee, 
      Springfield, VA............................................    65
        Prepared statement of....................................    67
    Ricketts, Hon. Pete, Governor, State of Nebraska, Lincoln, NE    11
        Prepared statement of....................................    14

Additional Submissions:
    Mr. Bruno:
        Research Report: Free-Rider States dated September 2, 
          2014...................................................   132
    Mr. Hewitt:
        Addenda to Testimony.....................................   164
        Tally of Ballots - UD Election...........................   166
        Letter of Concern from the Southeastern Connecticut 
          Central Labor Council..................................   164
    Jeffries, Hon. Hakeem S., a Representative in Congress from 
      the State of New York:
        Table 709, Individuals and Families Below Poverty Level 
          and by Rate to State...................................   120
    Pocan, Hon. Mark, a Representative in Congress from the State 
      of Wisconsin:
        Wisconsin Contractors Coalition, Business Members........    86
    Mr. Scott:
        Dimished Collective Bargaining Coverage Means Higher Wage 
          Inequality Across 32 Countries.........................     8
        Workers Produced Much More, but Typical Workers' Pay 
          Lagged Far Behind......................................     6

 
            COMPULSORY UNIONIZATION THROUGH GRIEVANCE FEES:
                  THE NLRB'S ASSAULT ON RIGHT-TO-WORK

                              ----------                              


                        Wednesday, June 3, 2015

                        House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:02 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson, Foxx, Thompson, 
Walberg, Salmon, Rokita, Messer, Byrne, Brat, Carter, Bishop, 
Grothman, Curbelo, Stefanik, Allen, Scott, Hinojosa, Grijalva, 
Courtney, Fudge, Polis, Sablan, Wilson, Bonamici, Pocan, 
Takano, Jeffries, Clark, and DeSaulnier.
    Staff present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Ed 
Gilroy, Director of Workforce Policy; Callie Harman, Staff 
Assistant; Tyler Hernandez, Press Secretary; Marvin Kaplan, 
Workforce Policy Counsel; Nancy Locke, Chief Clerk; John 
Martin, Professional Staff Member; Zachary McHenry, Legislative 
Assistant; Daniel Murner, Deputy Press Secretary; Brian Newell, 
Communications Director; Krisann Pearce, General Counsel; 
Alissa Strawcutter, Deputy Clerk; Juliane Sullivan, Staff 
Director; Alexa Turner, Legislative Assistant; Tylease Alli, 
Minority Clerk/Intern and Fellow Coordinator; Austin Barbera, 
Minority Staff Assistant; Amy Cocuzza, Minority Labor Detailee; 
Denise Forte, Minority Staff Director; Christine Godinez, 
Minority Staff Assistant; Carolyn Hughes, Minority Senior Labor 
Policy Advisor; Kendra Isaacson, Minority Labor Policy 
Detailee; Brian Kennedy, Minority General Counsel; Kevin 
McDermott, Minority Senior Labor Policy Advisor; Richard 
Miller, Minority Senior Labor Policy Advisor; Amy Peake, 
Minority Labor Policy Advisor; Veronique Pluviose, Minority 
Civil Rights Counsel; Dillon Taylor, Minority Labor Policy 
Fellow.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    Good morning. I would like to begin by extending a special 
welcome to Governor Pete Ricketts. Governor, we are grateful to 
you for taking time out of your schedule to join us as a 
testament to the importance of this issue, and your dedication 
to the people of your state.
    We are here to discuss the latest in a series of actions by 
the National Labor Relations Board, designed to empower big 
labor at the expense of America's workers.
    In recent years, the President's appointees at the NLRB 
have undermined employee free choice through an ambush election 
scheme, stifled employee freedom through micro unions, and 
restricted employee access to secret ballot elections.
    Now, the board is setting its sight on the freedom of 
choice provided to employees under the state right-to-work 
laws. In 1947, Congress passed a number of amendments to the 
National Labor Relations Act. One of those amendments allowed 
states to prohibit compulsory union membership. This important 
policy, known as right-to-work, simply means union membership 
cannot be a condition of employment and employees cannot be 
required to pay union dues or fees.
    Today, 25 states have enacted right-to-work laws, with 
Indiana, Michigan, and Wisconsin recently joining the ranks. 
Union leaders vigorously oppose right-to-work because it leads 
to less control over workers and fewer dollars flowing to union 
coffers. But this isn't about what is best for unions, it is 
about what is best for workers.
    Every worker has a fundamental right to decide whether or 
not to join a union. Those who decide not to join a union 
shouldn't be punished for that decision, especially when the 
punishment denies a worker the chance to provide for his or her 
family. That is why it is deeply troubling the Obama Labor 
Board is trying to undermine a policy embraced by workers and 
state leaders across the country.
    In April, the Board requested public comment on whether it 
should adopt a new rule permitting unions to charge nonunion 
members grievance fees in right-to-work states. We have long 
heard complaints from labor leaders about so-called ``free 
riders''--the idea that workers who opt out of union 
representation and associated fees still avail themselves of 
the provisions laid out in the collective bargaining agreement.
    When it comes to the grievance process, this argument is 
deeply flawed for a simple reason: workers have no choice. The 
grievance process is outlined in the collective bargaining 
agreement, and even nonunion members are bound by its 
requirements. There is no other recourse for nonunion members 
to resolve grievances aside from the process stipulated in the 
labor contract.
    If we adopted Big Labor's logic, workers would be stuck 
between a rock and a hard place. They would either have to pay 
the union fee or forfeit any opportunity to resolve grievances 
with their employers. That is not what Congress intended nearly 
70 years ago, and it is not what Congress intends today.
    Despite the complaints of labor leaders, current policies 
governing grievance fees have been board precedent for decades 
and have been upheld in federal court. These policies shouldn't 
be discarded by an unelected and unaccountable board of 
bureaucrats.
    For those who would argue we are getting ahead of 
ourselves, I would simply note that we have been down this road 
before. The board has a track record of seizing routine cases 
as a means to impose sweeping changes on our nation's 
workplaces. We have no reason to believe this case will be any 
different, and America's workers are once again expected to pay 
the price.
    Right-to-work is an important tool for state leaders trying 
to attract new businesses and good-paying jobs. Employers at 
home and abroad are increasingly drawn to right-to-work states. 
No doubt, Governor Ricketts will explain for us why that 
continues to be true. Working families win when companies like 
Volvo, BMW, and Volkswagen build factories here in the United 
States. With millions of Americans searching for full-time 
work, why would we discourage that kind of investment in our 
nation's workers?
    Just as importantly, why would we accept a policy that 
undermines the right of workers to decide whether or not they 
want to join a union? The board needs to pull back and leave 
employees in right-to-work states alone.
    Before closing, I want to make a brief comment about our 
witness panel. Staff received word late last night that one of 
our intended witnesses had expressed publicly a number of 
offensive views. The views expressed by this individual do not 
reflect the views of this committee or its members, and that is 
why the committee withdrew the invitation for this individual 
to testify. It is regrettable this occurred, and we look 
forward to a productive hearing on the important issue at hand.
    With that, I will now recognize Ranking Member Scott for 
his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Good morning. I'd like to begin by extending a special welcome to 
Governor Pete Ricketts. Governor, we are grateful to you for taking 
time out of your busy schedule to join us; it is a testament to the 
importance of this issue and your dedication to the people of your 
state.
    We are here to discuss the latest in a series of actions by the 
National Labor Relations Board designed to empower Big Labor at the 
expense of America's workers. In recent years, the president's 
appointees at the NLRB have undermined employee free choice through an 
ambush election scheme, stifled employee freedom through micro-unions, 
and restricted employee access to secret ballot union elections. Now 
the board is setting its sights on the freedom and choice provided to 
employees under state right to work laws.
    In 1947, Congress passed a number of amendments to the National 
Labor Relations Act. One of those amendments allowed states to prohibit 
compulsory union membership. This important policy, known as ``right to 
work,'' simply means union membership cannot be a condition of 
employment and employees cannot be required to pay union dues or fees. 
Today, twenty-five states have enacted right to work laws, with 
Indiana, Michigan, and Wisconsin recently joining the ranks.
    Union leaders vigorously oppose right to work because it leads to 
less control over workers and fewer dollars flowing to union coffers. 
But this isn't about what's best for unions; it's about what's best for 
workers. Every worker has a fundamental right to decide whether or not 
to join a union. Those who decide not to join a union shouldn't be 
punished for that decision, especially when the punishment denies a 
worker the chance to provide for his or her family. That is why it is 
deeply troubling the Obama labor board is trying to undermine a policy 
embraced by workers and state leaders across the country.
    In April, the board requested public comment on whether it should 
adopt a new rule permitting unions to charge nonunion members grievance 
fees in right to work states. We have long heard complaints from labor 
leaders about so-called ``free riders,'' the idea that workers who opt 
out of union representation and associated fees still avail themselves 
of the provisions laid out in the collective bargaining agreement.
    When it comes to the grievance process, this argument is deeply 
flawed for a simple reason: workers have no choice. The grievance 
process is outlined in the collective bargaining agreement and, even 
nonunion members are bound by its requirements. There is no other 
recourse for nonunion members to resolve grievances aside from the 
process stipulated in the labor contract.
    If we adopted Big Labor's logic, workers would be stuck between a 
rock and a hard place; they would either have to pay the union fee or 
forfeit any opportunity to resolve grievances with their employers. 
That is not what Congress intended nearly 70 years ago and it is not 
what Congress intends today. Despite the complaints of labor leaders, 
current policies governing grievance fees have been board precedent for 
decades and have even been upheld in federal court. These policies 
shouldn't be discarded by an unelected and unaccountable board of 
bureaucrats.
    For those who would argue we are getting ahead of ourselves, I 
would simply note that we have been down this road before. The board 
has a track record of seizing routine cases as a means to impose 
sweeping changes on our nation's workplaces. We have no reason to 
believe this case will be any different, and America's workers are once 
again expected to pay the price.
    Right to work is an important tool for state leaders trying to 
attract new businesses and good-paying jobs. Employers at home and 
abroad are increasingly drawn to right to work states. No doubt 
Governor Ricketts will explain for us why that continues to be true. 
Working families win when companies like Volvo, BMW, and Volkswagen 
build factories here in the United States. With millions of Americans 
searching for full-time work, why would we discourage that kind of 
investment in our nation's workers?
    Just as importantly, why would we accept a policy that undermines 
the right of workers to decide whether or not they want to join a 
union? The board needs to pull back and leave employees in right to 
work states alone.
    Before closing, I want to make a brief comment about our witness 
panel. Staff received word late last night that one of our intended 
witnesses has expressed publicly a number of offensive views. The views 
expressed by this individual do not reflect the views of this committee 
or its members, and that is why the committee withdrew the invitation 
for this individual to testify. It is regrettable this occurred, and we 
look forward to a productive hearing on the important issue at hand.
    With that, I will now recognize Ranking Member Scott for his 
opening remarks.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman. And Mr. Chairman, on 
that last remark, I appreciate that could happen to anyone. And 
I am delighted that you took the action you took.
    Mr. Chairman, the title of today's hearing, ``Compulsory 
Unionization through Grievance Fees: The NLRB's Assault on 
Right-to-Work'' fundamentally distorts the legal issues in a 
pending appeal before the NLRB. That appeal has to do with 
whether a union may charge a nonmember a fee to process a 
grievance when they request the union's assistance. The NLRB 
has solicited amicus briefs, but has not acted. Regardless, the 
case doesn't have anything to do with the right-to-work laws. I 
think we ought to let the NLRB process go forward, in any case.
    I represent a district in Virginia, which is a right-to-
work state and has been since 1947. That means that workers who 
are employed at a unionized workplace in Virginia cannot be 
required to pay union fees as a ``condition of employment.''
    However, this hearing does give us an opportunity to 
highlight serious policy questions beyond the narrow issue of 
grievance fees, such as whether the vast majority of workers 
are better off with stronger or weaker union representation.
    Congress passed the Taft-Hartley Act in 1947 that allows 
states to pass these right-to-work laws that allow workers to 
get all of the benefits of union representation without the 
responsibility of paying anything for it.
    Over the last 58 years, state legislators have passed so-
called right-to-work laws in 25 states. Since unions have the 
duty of fair representation to represent members and nonmembers 
alike, they are obligated to incur the costs of representing 
free riders, who are not paying union dues, and it forces 
actual members to pay higher dues to cover the expenses of the 
free riders, which creates a further disincentive to be a union 
member.
    When a grievance goes to arbitration, the cost to the union 
can often exceed $5,000 a case, an expense that dues-paying 
members must shoulder if the grievance is brought by a 
nonmember.
    Again, this isn't a discussion about the right to work. It 
is a question of whether one desires a stronger or weaker union 
movement. The economic research is clear, stronger unions are 
better than weaker unions for building and sustaining a strong 
middle class. Stronger unions reduce wage inequality and help 
ensure that the increased wealth generated by growing 
productivity is fairly shared by the workers.
    Falling union participation exacerbates the troubling 
economic conditions we are seeing today: stagnant wages and 
extreme levels of inequality in wealth and income. And this 
chart shows part of the problem. It shows from 1948 to 1973, as 
productivity grew 97 percent, wages went up 91 percent. But 
since 1973, worker output has soared another 74 percent, but 
income--but the hourly wages have gone up only 9 percent.
    [Additional submission by Mr. Scott follows:]
    [GRAPHIC] [TIFF OMITTED] T3704.028
    
    Again, this sharp divergence can be seen on the chart. And, 
coinciding with that divergence, there has been a reduction in 
union participation.
    Strong unions are needed to help close the gap between 
wages and productivity growth and to reduce inequality. The 
International Labor Organization recently evaluated wage 
inequality in 32 countries. And this chart shows that those 
with stronger union representation have less inequality; those 
with less union participation, like the United States, have 
extremely high levels of inequality.
    [Additional submission by Mr. Scott follows:]
    [GRAPHIC] [TIFF OMITTED] T4824.114
    
    The ILO's data illustrates a remarkably consistent 
relationship: low levels of collective bargaining coverage 
associated with high levels of inequality.
    So, Mr. Chairman, I don't expect us to agree today on the 
value of strong labor unions. But, reconsideration of the case 
law regarding grievance frees is not an overreach.
    I would note that it was a Republican NLRB chairwoman, 
Betty Murphy, who issued a concurring opinion in a 1976 case 
declaring that non-discriminatory grievance fees may well be 
permissible without running afoul of the National Labor 
Relations Act. In an opinion involving a Virginia mechanical 
parts manufacturer, she stated ``a bargaining representative 
requiring a payment of a reasonable fee for all employees for 
processing a grievance imposed on members and nonmembers alike 
cannot be discriminatory treatment of either group, and such a 
fee paid by nonmembers on the same basis cannot be unlawful.''
    I would caution the committee that we should respect the 
adjudicative process that is now underway before criticizing 
the NLRB's decision to simply ask for more input by soliciting 
amicus briefs. So rather than rushing into judgment on the 
nuances of this case, we should allow the NLRB to deliberate 
and render an opinion. Briefs are not even due until mid-July. 
And if the NLRB issues a decision that the parties feel is 
unlawful, they can obviously appeal.
    I would like to thank the witnesses for being here today, 
particularly those who had to travel a long way. And I look 
forward to their testimony.
    Yield back.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member 
                Committee on Education and the Workforce

    Mr. Chairman, the title of today's hearing ``Compulsory 
Unionization through Grievance Fees: The NLRB's Assault on Right-to-
Work,'' fundamentally distorts the legal issues in a pending appeal 
before the National Labor Relations Board. That appeal has to do with 
whether a union may charge a non-member a fee to process a grievance 
when they request the union's assistance. The NLRB has solicited amicus 
briefs, but has not yet acted. Regardless, the case has nothing to do 
with so-called right-to-work laws.
    I represent a District in Virginia, which is a right-to-work state 
and has been since 1947. That means that workers who are employed at a 
unionized workplace in Virginia cannot be required to pay union fees as 
a ``condition of employment.''
    No matter how the NLRB rules in the grievance fee case, Virginia 
will remain a right-to-work state. This case has nothing to do with 
whether a worker must join a union or pay an agency fee as condition of 
employment. It is misleading to suggest that the policy issues in this 
case are in any way related to the inflammatory title of this hearing.
    However, this hearing does highlight serious policy questions 
beyond the narrow issue of grievance fees, such as whether the vast 
majority of workers are better off with a stronger or weaker union 
movement. Congress passed the Taft Hartley Act in 1947--over President 
Truman's veto--with the intent to weaken the finances of labor unions. 
It allowed states to pass these right-to-work laws that allow workers 
to get union representation without paying for it. It authorized states 
to create a class of workers who can get something of real value for 
nothing. While some refer to these individuals as free-riders, I call 
them free-loaders.
    Over the past 58 years, state legislators have passed so-called 
right-to-work laws in 25 states. Since unions have a duty of fair 
representation to represent members and non-members alike, the costs of 
representing free riders weakens unions by draining their treasury. 
Alternatively, it forces members to pay higher dues to cover the 
expenses of the free riders, which creates further disincentive to be a 
union member. When a grievance goes to arbitration, the cost, even if 
split with the employer, runs the union upwards of $5,000 a case, an 
expense that dues-paying members must shoulder if the grievance is 
brought by a non-member. Again, any discussion of right-to-work is 
really about whether one desires a stronger or a weaker union movement.
    The economic research is clear--stronger unions are better than 
weaker unions for building and sustaining a middle class. Stronger 
unions reduce wage inequality and help ensure that the increased wealth 
generated by growing productivity is fairly shared with the workers. 
Falling union density exacerbates the troubling economic conditions we
    have today in this country: stagnant wages and extreme levels of 
inequality in income and wealth.
    Show Chart A (EPI).
    Part of the reason for growing inequality in our country is due to 
workers' limited bargaining power to secure a fair share of the 
increase in productivity, which is a measure of output per worker-hour. 
The hourly compensation of a typical worker grew in tandem with 
productivity from 1948 to 1973 , as productivity grew 97 percent 
matched by a 91 percent increase in real hourly wages. That can be seen 
in the Chart on the screen.
    However, since 1973 output per worker hour has soared 74 percent, 
while hourly compensation for the typical worker has increased only 
nine percent. Again, this sharp divergence can be seen on the chart. 
Coinciding with this divergence has been a reduction in union density.
    Strong unions are needed to help close the gap between wages and 
productivity growth, and to reduce inequality. The International Labor 
Organization recently evaluated wage inequality in 32 countries. See 
the chart on the screen.
    Show Chart B (ILO)
    The ILO found that those countries with collective bargaining 
coverage rates under 15 percent, such as the United States and South 
Korea, have extremely high levels of inequality.
    By contrast, countries with as much as 95 percent collective 
bargaining coverage, such as Belgium, Austria and Sweden, have far 
lower rates of inequality.
    The ILO's data illustrates a remarkably consistent relationship: 
low levels of collective bargaining coverage are associated with high 
levels of inequality.
    Mr. Chairman, I don't expect us to agree today on the value of 
strong labor unions, but reconsideration of the case law regarding 
grievance fees is not an overreach.
    I would note that it was a Republican NLRB Chairwoman, Betty 
Murphy, who issued a concurring opinion in a 1976 case declaring that 
non-discriminatory grievance fees may well be permissible without 
running afoul of the National Labor Relations Act. In an opinion 
involving a Virginia mechanical parts manufacturer, she stated:
    ``A bargaining representative requiring payment of a reasonable fee 
for all employees for processing a grievance, imposed on members and 
non-members alike, cannot be discriminatory treatment of either group, 
and such a fee paid by non-members on the same basis cannot be 
unlawful.''
    I would caution that this Committee should respect the adjudicative 
process that is now underway before criticizing the NLRB's decision to 
simply seek more input by soliciting amicus briefs.
    Rather than rushing to judgment on the nuances of this case, we 
should allow the NLRB to deliberate and render an opinion on the 
merits. Briefs are not even due until mid-July. And if the NLRB issues 
a decision that the parties feel is unlawful, they can seek judicial 
review in the Court of Appeals.
    I would like to thank our witnesses for being here today, 
particularly those who had to travel a long way, and look forward to 
their testimony.
                                 ______
                                 
    Chairman Kline. I thank the gentleman, however much we may 
disagree.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    I will now introduce our distinguished witnesses. The 
Honorable Pete Ricketts is the Governor of Nebraska. Governor 
Ricketts was sworn in as Nebraska's 40th governor on January 
8th, 2015. Prior to his election as Governor, he worked to 
support Nebraska entrepreneurs and start-up companies. He has 
also previously held various leadership roles in TD Ameritrade.
    Mr. Walter Hewitt is a director of technology with the 
United Way of Southeast Connecticut in Gales Ferry, 
Connecticut, and is testifying on his own behalf. Mr. Hewitt is 
responsible for all information technology initiatives at 
United Way of Southeast Connecticut. Prior to joining United 
Way in 2007, Mr. Hewitt worked at TriVIN, CCEH, and Pfizer.
    Dr. Robert Bruno is a professor at the University of 
Illinois in Urbana-Champaign. Dr. Bruno is the director of the 
labor education program, and his research focuses broadly on 
working-class and union studies issues.
    Dr. Elise Gould is a senior economist at the Economic 
Policy Institute here in Washington, D.C. Her research areas 
include wages, poverty, inequality, economic mobility, and 
health care.
    Mr. Mark Mix is President of the National Right-to-Work 
Committee in Springfield, Virginia. Prior to joining National 
Right-to-Work Committee in 1990, Mr. Mix worked for several 
state level right-to-work groups.
    I will now ask our witnesses to stand and to raise your 
right hand.
    [Witnesses sworn.]
    Let the record reflect the witnesses answered in the 
affirmative. You may be seated. I can't imagine the day when a 
witness doesn't answer in the affirmative. But there we are.
    Before I recognize you to provide your testimony, let me 
once again briefly explain our lighting system. It is a little 
antiquated, but it is pretty straightforward. You have five 
minutes to present your testimony. And by the way, I have yet 
to gavel down any witness who ran over in presenting their 
testimony. But I would encourage you, please try to stay within 
that, because we want to give all members the chance to 
participate.
    When you begin, the light in front of you will turn green. 
When one minute is left, the light will turn yellow. And when 
your time is expired, the light will turn red.
    I will point out that I will be less forgiving for members 
of the committee, as we will adhere to the five-minute rule.
    I would now like to recognize Governor Ricketts.

 TESTIMONY OF HON. PETE RICKETTS, GOVERNOR, STATE OF NEBRASKA, 
                       LINCOLN, NEBRASKA

    Governor Ricketts. Chairman Kline, Ranking Member Scott, 
and members of the committee, I thank you for examining the new 
and serious threat to state right-to-work laws from the 
National Labor Relations Board.
    Should the NLRB's threat be carried out, the board's 
actions would seriously impair employees' personal freedom, the 
economies of 25 states that have the right-to-work laws, and 
the U.S. economy.
    According to the Bureau of Labor statistics, Nebraska has 
the lowest unemployment rate, at 2.5 percent. We know our 
right-to-work laws present a competitive advantage for us and 
contribute to this because it sends the right message to 
employers and employees.
    When I was president of Accutrade, a subsidiary of what is 
now TD Ameritrade, we were looking to expand outside the state 
and we were going to create several hundred jobs. One state, 
Oklahoma, approached us. And when we found out they were not a 
right-to-work state, we stopped the conversation. There wasn't 
any point going further. We know that being a right-to-work 
state is a competitive advantage in being able to attract 
businesses and new jobs.
    Last year, I was elected as governor of Nebraska. Nebraska 
has a long history of defending freedom. In fact, in 1946, 
Nebraska voted 60 percent to 40 percent to adopt a right-to-
work law prohibiting compulsory union membership. This was even 
before Congress had passed the Taft-Hartley Act, reaffirming 
the power of states to approve and enforce such laws.
    Like the overwhelming majority of my constituents, I am a 
strong supporter of the nearly seven decades of the right-to-
work provision in Nebraska's constitution. Along with other 
like-minded Nebraskans, I will fight with determination against 
any and all attempts by the Federal Government to undermine the 
power of the states to protect employees within our borders and 
forced union affiliation.
    Now, the NLRB is threatening to undermine the power of the 
states and impose fees on free people by board fiat. The board 
would grant private sector union officials compulsory workplace 
grievance privileges. The intended consequence will be to 
undermine the right-to-work freedom currently granted by 
Nebraska and 24 other states.
    Requiring a nonmember to pay for a union's participation is 
unreasonable and unfair. And it makes perfect sense that both 
the courts and the NLRB have consistently barred organized 
labor from charging nonmembers in right-to-work states to get 
their grievances processed, when union members can have their 
grievances processed for free.
    But now the NLRB seems poised to do an about-face on its 
own precedent going back to 1953. The NLRB's apparent eagerness 
to suddenly give a green light to forced grievance fees is 
especially disturbing to Nebraskans. Right-to-work supporters 
in our state fought this battle over a decade ago and thought 
we had won up until the spring when the NLRB made their 
announcement.
    Over 10 years ago, officers in the AFL-CIO had lobbied for 
a bill called L.B. 230, which would be very similar to what the 
NLRB is now proposing. L.B. 230 would have entitled organized 
labor to charge agency fees to nonunion members and then 
actually sue those workers who refused to pay it. Effectively, 
you know, forcing them to accept the fees.
    Supporters of this legislation managed to attach the 
language of L.B. 230 into a high-priority workers' compensation 
reform bill. But grassroots opponents, assisted by the National 
Right-to-Work Committee, kept fighting back.
    Finally, State Senator Adrian Smith, who I am happy to say 
is a member of the U.S. House of Representatives today, vowed 
he would lead a protracted fight to stop the workers' comp 
reform bill if it came to the floor with the forced 
unionization language still attached. In the end, the forced 
grievance fees provision was not enacted.
    Mr. Chairman, the battle that occurred in the early to mid-
2000s to defeat L.B. 230 in Nebraska was a classic example of 
representative government in action. It is unfortunate and 
would be a travesty if the NLRB would now choose to 
bureaucratically override the will of the people. This is an 
issue of precedence and State's rights. This is about the 
people I represent, who respect the right to organize and 
respect the right to decline.
    Nebraska and 24 other states protect the rights of workers 
to handle the grievances as they see fit. This is a proposal 
that is a solution in search of a problem and would hurt 
individual rights, employers, and continued economic growth.
    Thank you very much for the opportunity to be here to 
testify.
    [The testimony of Governor Ricketts follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you, Governor. And thank you for 
staying within the five minutes. That is a good example.
    Mr. Hewitt?

TESTIMONY OF MR. WALTER HEWITT, MANAGEMENT INFORMATION SYSTEMS 
 DIRECTOR, UNITED WAY OF SOUTHEASTERN CONNECTICUT, (TESTIFYING 
            ON OWN BEHALF), UNCASVILLE, CONNECTICUT

    Mr. Hewitt. Chairman Kline, distinguished committee 
members, thank you for providing me with this opportunity to 
talk to you about the importance of right-to-work in the 
workplace.
    I want to start out by saying that I am not anti-union, in 
spite of many of those assertions from various union members 
after I agreed to come here today. Unfortunately, I do live in 
a compulsory union state. By virtue of the fact that my 
company, the United Way of Southeastern Connecticut has a 
union, I am forced to be a union member, whether or not I wish 
to be.
    We have had certain issues recently which have convinced 
us, the members, to do some research and determine what our 
rights actually are. Luckily, we discovered that we do, in 
fact, have the right to disassociate. Let me give you some 
background about that.
    Basically, during recent contract negotiations with the 
OPEIU, our current union, our union officials, refused to bring 
any issues to the table to talk to the employees at all about 
what was presented to them, what issues were on the table, what 
was being negotiated. Most infuriating to us was the fact that 
the union representatives agreed to--and they claimed to--they 
claimed that they agreed that management had encouraged them 
and required them to keep a veil of secrecy and that no one 
could present anything to the employees during this negotiating 
process.
    During this period, I stood up at a union meeting and noted 
the employees' strong displeasure with the secret negotiating 
process, which limited the union's ability to communicate with 
membership. I stated my belief to the union officials that 
failure to communicate with employees prevented them from 
faithfully fulfilling their duty to represent us.
    In addition, I asked that those officials would consider 
signing a prospective document assuring that never again would 
they agree to any such process that would limit their ability 
to communicate with membership. The union, unfortunately, 
declined to make any such pledge.
    Our members--many members stood up and agreed with me and 
noted their own displeasure with the entire negotiating 
process. Employees expressed frustration with the way the union 
officials were treating employees and had treated us for many 
years. Employees who dared to question the union were treated 
extremely rudely at this and other meetings.
    We were, quite frankly, amazed that it is possible that 
this union tasked with representing this body of people would 
speak to us in such a rude fashion and treat our collective 
requests with such wanton disregard. It was the way that the 
members were treated during those meetings that convinced me 
and my associates to disassociate from the union's actions. 
Long-standing members of our union were belittled and verbally 
abused for simply speaking up.
    The first impulse I and other members had was to drop the 
union altogether and negotiate directly as individuals or find 
another union, perhaps. But we learned--and a simple Google 
search allowed me to determine that there is a way to 
decertify. So we set about, we collected a petition with over 
50 percent of our members agreeing. It was my belief, our 
belief, that we could submit this to management prior to the 
signing of the next contract and we could continue to move 
forward without the union.
    Unfortunately, there is a contract bar rule, which provides 
only a small window of opportunity for that petition to be 
submitted. I went to and did another Google search. I was lucky 
to find Glenn Taubman at the National Right-to-Work, and he 
explained that there was this other provision, a way to 
disassociate and at least not be forced to pay another three 
years of union dues and have no one listen to us.
    The bottom line is we really do not want to have to sit 
there and be ignored for another three years. There is 
absolutely no other way for us to get their attention to get 
them to work on our behalf and do as we ask, other than to have 
a vote and be able to say look, enough is enough. We had that 
vote; on April 30th 62 percent of the membership, in fact, 
voted yes, we do want to disassociate with this union.
    However, the union raised an objection and indicated that--
falsely, I might add--that I had some contact with the 
management that encouraged me to do this process. It couldn't 
be farther from the truth, and it should be immaterial. 
Irregardless, we are still waiting for the NLRB to issue the 
decision to certify the results of that election and allow us 
to move on.
    In closing, I would like to say that without right-to-work, 
unions are all but guaranteed to become complacent and lazy in 
responding to the wishes of their members. This behavior borne 
of the ability to force dues from all employees or to get them 
fired is guaranteed to cause a rift between the union members 
and the union leadership, and will ultimately result in the 
collapse of the unions themselves.
    Without right-to-work freedom to chose, any claim of 
solidarity is an obvious farce. The only way individual members 
can have influence over union officials is through the power of 
the pocketbook. Our ability to de-authorize the union dues 
clauses from our contract, in essence, is a line item veto of 
compulsory financial participation, and it has given us the 
chance to encourage the OPEIU union to act in the employees' 
best interest and to earn our voluntary support.
    I think passage of a national right-to-work act would 
strengthen every worker in the United States who works under a 
monopoly bargaining arrangement. And I think that the NLRB must 
be stopped as it tries to weaken and undermine these rights 
with this parallel de-authorization process.
    [The testimony of Mr. Hewitt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you, sir.
    Dr. Bruno you are recognized.

  TESTIMONY OF DR. ROBERT BRUNO, PH.D., PROFESSOR, SCHOOL OF 
    LABOR AND EMPLOYMENT RELATIONS, UNIVERSITY OF ILLINOIS, 
                       CHICAGO, ILLINOIS

    Mr. Bruno. Thank you. Good morning, Chairman Kline, Ranking 
Member Scott, and members of the committee. My name is Robert 
Bruno, and I am a professor of labor and employment relations 
at the University of Illinois.
    My testimony addresses four key points. First, I provide an 
explanation of what is meant by right-to-work laws. Second, I 
explain why the ostensible focus of the hearing today is 
mislabeled. Third, I describe how right-to-work laws raise 
fundamental equity issues. And fourth, I summarize findings 
from a substantial body of evidence on the negative impacts of 
right-to-work on workers, middle-class opportunities, and 
societies at large.
    A right-to-work law has nothing to do with the right of an 
individual to seek and accept gainful employment. Instead, a 
right-to-work law is a government regulation that bars 
employers and labor unions from including union security 
clauses in collective bargaining agreements.
    Since 1947, workers have not been forced to join a union 
anywhere in America. But labor unions must, by law, 
unconditionally represent, at times at great cost, all 
employees in a workplace.
    In my opinion, it is premature to be commenting on the 
elements that may be at play in the Buckeye, Florida case. 
Consistent with decades of past practice, the board has simply 
requested that interested parties submit briefs on a set of 
questions.
    Additionally, it is important to point out that whatever 
the findings of the board turn out to be, the current case does 
not revisit or affect in any way the standing of right-to-work 
laws. Nothing in the Buckeye case affects the power of a state 
to adopt such a law or affects any such laws currently on the 
books.
    While there is little value in speculating on the Buckeye 
case, right-to-work raises serious equity issues. In right-to-
work settings, workers can choose to receive 100 percent of the 
sizable benefits of a collective bargaining agreement, while 
making no contribution to the cost of providing those benefits. 
This arrangement violates one of the most cherished values of 
American society: the fairness principle.
    Right-to-work, contrary to basic social tenets of 
individual autonomy and responsibility, celebrates--even 
encourages--shifting the burden of sustaining an equitable 
employment relationship onto others who have freely made a 
decision to pay their fair share.
    Now, as of June 2015, there are 25 states with right-to-
work laws and 25 states, plus the District of Columbia, where 
fair share agreements are permitted. This difference in 
statewide labor policy creates a natural laboratory in which 
researchers have analyzed economic impacts. So let me now 
briefly address six of those impacts of right-to-work laws.
    First, there is no significant impact of right-to-work laws 
on overall employment in a state economy. And corporate 
decision makers repeatedly do not identify right-to-work laws 
as a defining factor in business location decisions.
    Number two, right-to-work policy causes a loss in worker 
earnings and lowers both employer-provided health insurance and 
pension coverage.
    Number three, by lowering worker earnings, right-to-work is 
associated with a drop in tax revenues and an increase in the 
need for government assistance. Workers, for example, in right-
to-work states receive more in tax relief from the Earned 
Income Tax Credit than workers in collective bargaining states. 
By earning higher incomes, contributing more in tax revenues, 
and receiving less in government assistance, workers in 
collective bargaining states are subsidizing the low-wage model 
of employment in right-to-work states.
    Number four, right-to-work lowers union membership. And 
paired with the previous impacts lends weight to claims that 
the true intent of right-to-work is an antipathy towards 
organized workers.
    Number five, unions benefit individuals and society at 
large, for example, by raising wages, increasing employment-
based health and retirement benefits, giving workers a voice at 
work, and standardizing safety procedures to reduce workplace 
fatalities and injuries.
    In addition, people living in union households report 
higher levels of well-being than those residing in nonunion 
households. But, because right-to-work reduces union 
membership, there is a corresponding loss of these goods for 
individuals and society.
    And number six, the United States has experienced a 
prolonged period of income inequality. By far, the largest 
institutional driver of that inequality has been the gradual 
decline in union membership. The decline in unionization rates 
explains a fifth to a third of the growth in inequality in 
America.
    And in conclusion, right-to-work is bad public policy. 
Right-to-work laws have no discernible impact on job growth, 
lower worker earnings and benefits, have a negative impact on 
the public budget, while increasing reliance on government 
assistance programs.
    Finally, right-to-work laws reduce unionization rates and 
the relative power of labor unions, thereby increasing societal 
income inequality and, importantly, restraining the growth of 
the middle class. Thank you.
    [The testimony of Dr. Bruno follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you. Dr. Gould, you are recognized.

   TESTIMONY OF DR. ELISE GOULD, PH.D., SENIOR ECONOMIST AND 
DIRECTOR OF HEALTH POLICY RESEARCH, ECONOMIC POLICY INSTITUTE, 
                         WASHINGTON, DC

    Ms. Gould. Thank you. Good morning. Chairman Kline, Ranking 
Member Scott, and members of the committee, thank you for the 
invitation to speak here today on the important issue of the 
economics of unionization.
    My name is Elise Gould, and I am a senior economist at the 
Economic Policy Institute. I have three important points to 
share with you today.
    First, wage growth for typical workers has been sluggish 
for a generation despite sizable increases in overall 
productivity, incomes, and wealth.
    Second, a key factor in the divergence between pay and 
productivity is the widespread erosion of collective bargaining 
that has diminished the wages of both union and nonunion 
workers.
    Third, because right-to-work laws weaken unions, it is no 
surprise that wages are lower and benefits are less common in 
right-to-work states compared to states without such laws.
    Productivity is our nation's output of goods and services 
per hour worked. In the three decades following World War II, 
the hourly compensation of a typical worker grew in tandem with 
productivity. Since the 1970s, however, pay and productivity 
were driven apart. Between 1979 and 2013, productivity grew 64 
percent, while hourly compensation only grew 8 percent.
    This brings me to my second point. One key factor in the 
divergence between pay and productivity is the widespread 
erosion of collective bargaining that has diminished the wages 
of both union and nonunion workers. In fact, the erosion of 
collective bargaining has been a key factor undermining pay 
growth for middle-wage workers over the last few decades.
    When unions are able to set strong pay standards in 
particular occupations or industries through collective 
bargaining, the employers in those settings also raise the 
wages and benefits of nonunion workers towards the standards 
set through collective bargaining. Over the last 30 years, the 
union coverage rate was cut in half. This weakening of the 
collective bargaining system has had an adverse impact on the 
compensation of both union and nonunion workers.
    The decline of collective bargaining through its impact on 
union and nonunion workers can explain one-third of the rise of 
wage inequality among men since 1979 and one-fifth among women.
    Furthermore, the states where collective bargaining eroded 
the most since 1979 had the lowest growth in middle-class 
wages. Specifically, the ten states that had the least erosion 
of collective bargaining saw their inflation-adjusted median 
hourly compensation grow by 23 percent from 1979 to 2012, far 
faster than the 5 percent growth of the 10 states suffering the 
largest erosion of collective bargaining. That is a gap in 
compensation growth of 17.9 percentage points.
    This same dynamic played out in the ability of typical 
workers to share in productivity growth. The divergence between 
the growth of median hourly compensation and productivity was 
greater in the states that suffered the largest erosion of 
collective bargaining. The greater the decline in collective 
bargaining coverage, the lower was the return on productivity 
obtained by the typical worker.
    This takes me to my third point and the subject of my most 
recent research in the area, which is attached to this 
statement, the relationship between wages and right-to-work 
status.
    At their core, right-to-work laws hamstring unions' ability 
to help employees bargain with their employers for better 
wages, benefits, and working conditions. Given that 
unionization raises wages for both individual union members as 
well as for nonunion workers in unionized sectors, it is not 
surprising that research shows that both union and nonunion 
workers in right-to-work states have lower wages and fewer 
benefits on average than comparable workers in other states.
    Wages in right-to work states are 3.1 percent lower than 
those in non-right-to-work states after controlling for a full 
complement of individual, demographic, and socioeconomic 
factors, as well as state macroeconomic indicators.
    This translates into right-to-work status being associated 
with $1,558 lower annual wages for a typical full-time, full-
year worker. Related research also finds that workers in right-
to-work states are less likely to have employer-sponsored 
health insurance and pension coverage. And these results do not 
just apply to union members, but to all employees in the state. 
Where unions are strong, compensation increases even for 
workers not covered by any union contract as nonunion employers 
face competitive pressure to match union standards.
    Likewise, when unions are weakened by right-to-work laws, 
all the state's workers feel the impact. As unions are 
weakened, workers' diminished bargaining power means lower 
compensation and a continued divergence between pay and 
productivity.
    Thank you for the opportunity to speak with you about this 
important issue.
    [The testimony of Dr. Gould follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you.
    Mr. Mix, you are recognized.

 TESTIMONY OF MR. MARK MIX, PRESIDENT, NATIONAL RIGHT TO WORK 
                COMMITTEE, SPRINGFIELD, VIRGINIA

    Mr. Mix. Yes. Thank you for the opportunity, Mr. Chairman, 
members of the committee. It is a pleasure to be here and talk 
about right-to-work.
    Let's just first of all get a better definition on the 
table here about what right-to-work is. Right-to-work laws in 
25 states do not stop any worker from joining a union. Right-
to-work laws in 25 states do not stop any worker from paying 
union dues. Right-to-work laws in 25 states do not stop any 
worker from supporting the political campaigns and political 
actions of labor unions. They simply give workers the choice.
    Fundamentally, at the bottom of the right-to-work fight is 
a battle between union officials and the very workers they 
claim to represent. This is not a battle between business and 
labor. This is a battle between union officials and workers, 
who, if given the choice, may decide they don't want to 
associate with a labor union. Unfortunately, in 25 states, they 
can be fired from their jobs for failure to tender dues or fees 
to a union.
    You know, we talk about the right to associate in this 
country, the right of association. In order to have the right 
to associate, it is fundamentally sound to believe that you 
must have the right not to associate. Yet, labor policy throws 
that associational privilege on its head by forcing workers to 
associate with someone and some organization which they may not 
want to associate with. That is the original injustice of what 
we have in this regime of compulsory unions and for over 80 
years in this country since 1935.
    One solution, one minor solution, is to give workers the 
choice. In 1947, as the Chairman mentioned, Taft-Hartley was 
passed to basically address the issue that from 1935 from 1947, 
forced workers not only to pay fees to them, but actually 
forced them to join, to physically join a private organization. 
In General Motors in 1963, the Supreme Court said we have gone 
too far. We can't force them to join a private organization, 
but we can force them to pay up to 100 percent of dues or fees 
to keep their jobs.
    The duty of monopoly representation is something that we 
should be discussing here, and it is something that is relevant 
to the discussion of the NLRB's action when it comes to 
charging workers for representational fees. You know, this so-
called duty of fair representation was created by the U.S. 
Supreme Court interpreting the National Labor Relations Act in 
a case called Steele v. Louisville National Railroad, 1944.
    And that case was a very interesting one. Because if you 
look at it, what happened in that case is five black train 
workers were not going to be represented by the union. They 
were forced to join, but the white union officials said they 
would not represent those workers. And those workers went to 
the Supreme Court and they said we are forced to join this 
organization, we are forced to accept them as our bargaining 
agent, but yet they choose not to support us and not represent 
us; in fact, won't let us even participate in a union.
    And the Supreme Court said in that case, said that is a 
pretty amazing power that we have given to organized labor 
officials. And because we have given them that power to control 
the livelihoods of these workers and to force ourselves in 
between them and their opportunity to speak for themselves, we 
believe that the statute also created a duty to represent those 
workers. That is the duty of fair representation.
    So you had this forced association and then you had the 
union saying we are not going to represent you--in this 
particular case because of the color of your skin--and we had 
the court coming back saying we can't give you this monopoly 
bargaining power without the right to have workers be able to 
represent them as well, even though they don't want to be 
associated with you.
    The notion that we are now coming back after 60 years of 
NLRB precedent, Supreme Court precedent, and U.S. District 
Court and federal court precedent and considering the idea that 
we are going to force workers to pay fees for grievance 
representation is just another example of union officials 
trying to get around the right-to-work protections.
    I mean, I would be scared, too if I were union officials, 
because three states have passed trying work laws in the last 
three years. Eleven states had bills in their legislature. 
Missouri, the House and Senate passed a right-to-work law. In 
New Mexico, the House of Representatives passed a right-to-work 
law. In Maine, there is a debate over right-to-work; in 
Montana. The issue of worker freedom is spreading across the 
country. And one of the things that you could do to stop that 
was to give union officials new power to force nonmembers to 
pay fees.
    The court, in a case called Emporium v. Capwell, said that 
individual employees cannot individually use the grievance 
process. Union officials own the grievance process. That is a 
fact. The Supreme Court has said that, District Courts have 
said that, the NLRB has said that. And despite what Betty 
Murphy, the Republican member of the NLRB, said in 1975, in 
four instances since that time in NLRB proceedings, the NLRB 
has upheld the notion that you can't force workers to pay 
grievance fees.
    The extant case here, the Buckeye case we are talking 
about, is about the idea of forcing this worker to pay a fee. 
Now, obviously, nothing has been happening yet on this. And we 
expect the NLRB to ask. They have asked for briefs, as the 
professor said. And we expect that the three members of that 
board who have changed the rules as to union elections and are 
looking to change the rules as to how strikes are operated are 
interested in changing the rules on how right-to-work laws are 
enforced. And I would be glad to talk to you more about that in 
question-and-answer.
    [The testimony of Mr. Mix follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Foxx. [Presiding.] Thank you very much. Thanks to all 
the panelists for doing such a great job of staying within 
time. I now recognize myself for five minutes to ask questions. 
The Chairman had to step away and will be back.
    Mr. Mix, Mr. Bruno states that a right-to-work law is a 
government regulation that bars employers and labor unions from 
agreeing to ``union security clauses in collective bargaining 
agreements.'' This is a substantially different explanation 
than the one you have offered. And I know that Mr. Bruno's 
explanation leaves out employees.
    I have two questions. First, is a compulsory union 
membership a government creation? And second, how can employees 
object to a union security clause in a collective bargaining 
agreement?
    Mr. Mix. Yes. The notion of compulsory unionism was 
developed in 1935 in the Wagner Act after President Roosevelt 
came to office. And using New Deal powers and the energy of the 
particular climate at the time, they passed a sweeping labor 
relations law that now covers private sector workers across the 
country. We are 80 years into that experiment.
    So the idea of Section 7 rights under the National Labor 
Relations Act is really kind of a very interesting preamble to 
our labor law. It talks about the workers' rights to associate, 
the workers' rights to bargain, the workers' rights to do all 
of these things. And it says--believe it or not, it says ``has 
the right to refrain--'' and if Congress would have put a 
period there, we wouldn't be here today because unionism would 
be voluntary. But they didn't. They said, except to the extent 
that a worker can be compelled as a condition of employment, as 
a contract matter, to formally join a labor union. If Congress 
hadn't said that at the end, that little phrase at the end of 
Section 7 of the Act, we would have voluntary unionism in 
America. But Congress established this compulsory union saying 
a worker could be fired if they did not tender dues or fees to 
a union. Twenty-five states now protect that.
    The idea of a union security clause, that is a mandatory 
subject of bargaining. If an employer refuses to bargain over 
whether or not his employees would be forced to pay dues or 
fees or her employers are forced to pay dues or fees, the union 
can file an unfair labor practice charge against them saying 
they are not bargaining in good faith. They must bargain over 
the union security clause.
    And frankly, if you are an employer and you look at this 
and you say okay, we are bargaining over wages, working 
conditions, all kinds of things. The one thing the unions put 
on the table is a union security clause, that doesn't cost me a 
thing. It simply says I have to force all my employees to pay 
38 bucks a month in order the work here. It doesn't hit my 
bottom line, it doesn't hit the cost of the contract. It is 
simply something that one, you have to bargain over. And two, 
something that the union oftentimes goes on strike over if you 
don't agree to it and will file unfair labor practices if you 
won't bargain over it.
    Ms. Foxx. When you were President of Accutrade, you 
employed hundreds of people. How did you handle employee 
grievances at Accutrade? In your opinion, is union 
participation necessary to resolve a grievance to the 
satisfaction of both the employer and the employee?
    Governor Ricketts. Well, I don't believe that the union 
participation was necessary. When we had issues with folks who 
worked at Ameritrade, we tried to work them out. So, for 
instance, if someone had an issue with the manager, they would 
bring it to the manager, they would bring it to that manager's 
manager, or they would talk with us.
    I think what you are really seeing here is it is about the 
employees' right to choose. How do they want to resolve those 
issues? And the company that I was at, we tried to resolve 
those because we knew that if we had somebody who was a 
satisfied employee, that person would take care of our 
customers, and that is how we were able to grow our business. 
So we didn't need a union to be able to do that. We knew that 
it was in our best interest to make sure that our employees 
were happy so they would make sure our customers were happy.
    Ms. Foxx. Thank you. Let me go back to Mr. Mix.
    We hear a lot about the issue of fairness around here. 
Unions have argued that fair share policies that require 
nonmembers to pay grievance processing fees are fair. Is this a 
fairness matter? And you alluded before about employees 
pursuing their agreed grievances outside the procedures laid 
out in the CBA. I wonder if you would talk a little bit more 
about that.
    Mr. Mix. Yes. Just to reiterate, the policy of the Supreme 
Court, the NLRB, and federal courts has been that individual 
workers cannot exercise the grievance process outside of union 
control. The unions own the process. That is literally the 
words the courts have used in talking about the grievance 
process.
    But let's talk a little bit more about the fairness to 
nonmembers. In a right-to-work state, even in the 25 right-to-
work states, in order for a worker to exercise those rights, 
they have to give up certain workplace rights in order to 
exercise their personal rights or their political rights. You 
have to resign to union membership in order to exercise your 
privileges under the right-to-work laws.
    What that means is you can't vote on the very contract that 
governs your employment. It means you can't vote in union 
elections. You can't run for union office. You can't 
participate in union activities at all.
    So on one hand, you have this Hobson's choice of having to 
give up your workplace rights in order to protect your 
philosophical, economic, political rights. That is not fair to 
begin with. Because the union has the monopoly bargaining 
privilege. They speak for you whether you want it or not. You 
are forced to associate with them.
    In the forced-unionism states, a worker has to go through 
that same process and give up those same rights, but can be 
compelled to pay fees in order to keep their job. That is not 
fair.
    Ms. Foxx. Thank you very much, Mr. Mix.
    Mr. Scott, you are recognized for five minutes.
    Mr. Scott. Thank you, Madam Chair.
    Mr. Mix, you went to great lengths to talk about the 
unfairness of union members not being fairly represented. Isn't 
it true that even nonmembers get the benefit of salary 
negotiations?
    Mr. Mix. That is true. Under the exclusive monopoly of 
bargaining power, those workers will receive those. But they 
have to.
    Mr. Scott. Okay. And if the union hires people to make sure 
the workplace is safe, the nonmembers get benefit of that--of 
those expenditures?
    Mr. Mix. Congressman Scott, you are assuming that 
everything is a benefit to everybody. I would disagree with 
that contention, that premise. And we can discuss these. I 
mean--
    Mr. Scott. Okay, well--
    Mr. Mix.--the idea that something benefits you, I may not 
believe it to be a benefit. So you can talk about the equity of 
that--
    Mr. Scott. Well--
    Mr. Mix.--compulsory agreement.
    Mr. Scott. But you know that Virginia is an employment-at-
will state, where the employer can fire people without cause?
    Mr. Mix. Yes, sir. And as a state legislator, you know they 
are not the same code. The employment-at-will doctrine is 
completely separate from the right-to-work doctrine.
    Mr. Scott. That is true. But if you are not a union member 
and the union contract says you can't be fired without cause, 
you would benefit for that even though you are not paying dues, 
is that true?
    Mr. Mix. That is a burden that the union took upon 
themselves, sir. They wanted to be the exclusive bargaining 
agent. In fact, the United Steel Workers--
    Mr. Scott. The employee nonmember gets the benefit of that 
protection.
    Mr. Mix. Under the monopoly bargaining agreement, they are. 
The courts have recognized there is a duty of representation, 
that is correct.
    Mr. Scott. Dr. Bruno, the nonmembers get the benefit of all 
of the benefits that members get. Is it a different question 
when you talk about individualized representation that no one 
benefits from except the free rider?
    Mr. Bruno. Well, Member Scott, if I understand your 
question, it really speaks to who benefits when the union 
negotiates a collective bargaining agreement and whether those 
benefits are equally accessible to all workers. And at 
different times in a worker's career, one benefit may prove 
more valuable than another. But they are all equally available. 
They can all be equally accessed.
    And clearly, a safer workplace will benefit all workers, 
whether an individual worker conceptualizes a particular safety 
procedure as helpful or not. Safety is something that affects 
everyone. Wage increases, retirement benefits, having a voice 
on the job, being able to have an opportunity to question a 
form of managerial abuse. We recognize these generally as a way 
to bring democracy into the workplace. And that is going to be 
an equal benefit to all workers, whether individual workers 
have a particular need for it at a particular time.
    Mr. Scott. And what about--yes. But a grievance is an 
individual representation that runs up cost. Is that a 
different question whether a nonmember were to have access to 
that individualized representation that doesn't benefit anybody 
but that nonmember?
    Mr. Bruno. Well, it is--actually, it is--most grievances 
that occur in the workplace, whether they are happening to a 
union member or to a nonmember have implications for the entire 
bargaining unit. They set precedent. They help to shape what 
the bargaining relationship is going to be.
    So in effect, every worker is impacted by the way 
particular disputes are addressed and handled in a workplace.
    Mr. Scott. But that individual will benefit without paying 
any of the costs?
    Mr. Bruno. Absolutely. Absolutely.
    Mr. Scott. We have heard that right-to-work states, Dr. 
Bruno, have competitive advantages. What is the competitive 
advantage that a right-to-work state has?
    Mr. Bruno. Well, if you are a worker, I can't see any. In 
you are an employer, there is some shifting of wealth shares 
from workers to the employer. But in terms of the general 
health of the economy or of workplaces, there is no clearly-
defined benefit that right-to-work isolated as a policy 
generated.
    What it ultimately does, it reduces voice. It reduces 
choice on behalf of workers who collectively organize. And it 
re-shifts power to management.
    Mr. Scott. Dr. Gould, can you talk about the benefits of 
union membership to nonmembers? To those areas where there are 
not--people are not--do not belong to unions, what a strong 
union movement does for them?
    Ms. Gould. Yes, absolutely. A strong union membership sets 
standards that raise the wages of nonunion members, as well as 
union members so that the wages and benefits are higher and 
wage bargaining is stronger in both union and nonunion benefit 
in--for both union and nonunion members where unions are 
strong.
    Chairman Kline. [Presiding.] Gentleman yields back. I want 
to apologize for stepping out for a minute. It is a crazy world 
that we live in. And thank Dr. Foxx for taking the chair for a 
few minutes.
    Dr. Bruno stated in his testimony, roughly quoting here, 
that nothing in the case before the board on grievance fees 
affects the power of a state to adopt right-to-work laws or 
affects any such law currently on the books. Roughly a direct 
quote.
    Governor Ricketts, do you agree with that?
    Governor Ricketts. No, I would disagree with that. In fact, 
as I mentioned in my testimony, we have actually fought this 
battle over 10 years ago. And during the course of that 
discussion, our attorney general ruled--and I think other 
courts have found the same--that if you are compelling nonunion 
members to pay grievance agency fees, whatever it is, you are 
essentially compelling them to join the union, which is in 
direct contradiction of our constitution in Nebraska and, in 
general, the principle of the right-to-work states.
    So this proposed rule would actually be a direct attack on 
the 25 right-to-work states and the laws that they have passed, 
in our case, our Constitution.
    Chairman Kline. Thank you. Continuing with Dr. Bruno's 
testimony. He says that right-to-work policy is a misguided 
means to individual advancement at the expense of others.
    Mr. Mix, your testimony highlights how compulsory 
unionization advances certain individuals at the expense of 
others. Could you briefly summarize that section of your 
testimony? Let's get clear on this.
    Mr. Mix. Yes, it is interesting. When you think about the 
idea that a collective, no good worker can be rewarded above 
any other worker, no bad worker can be disciplined as opposed 
to other workers when it comes to a monopoly bargaining 
contract. Basically, even union officials and union economists 
have indicated this, that it is clear that union--compulsory 
union agreements and monopoly bargaining agreements actually 
hold back some of the most productive workers. And it stops 
them from being rewarded for their good work, because all of 
the raises or bonuses or anything have to be negotiated in the 
contract.
    So it is very clearly detrimental to some of the best 
workers, and it is very beneficial to some of the worst 
workers.
    Chairman Kline. Yes, thank you. It is interesting to see 
the steady decline in union membership in the private sector. 
And I am always fascinated in these hearings and these 
discussions. Everybody has got statistics, boy, they have got 
research they are ready to quote. And it depends on what 
baseline you start with and what you factor in and out.
    I am looking at a little factsheet here that shows some 
numbers derived from the Bureau of Labor Statistics and the 
Department of Commerce, Bureau of Economic Analysis, and some 
more stuff from the Bureau of Labor Statistics.
    And it gets to--again, these are--depends on where you 
start. But if you look, for example, according to this, at the 
growth and the number of residents in the state, in right-to-
work states they are a growing by 5.4 percent between 2003 and 
2013. And the other states are declining by 4.1 percent. So I 
can understand why some governors would be pretty strong 
proponents, as we have seen in recent months, for right-to-work 
laws.
    More statistics. Here again, if you look from 2004 to 2014, 
the percentage of growth in nonfarm private sector payroll 
employment in right-to-work states is 9.9 percent, in the other 
states it is 5.1 percent. The percentage of growth and total 
private sector nonfarm employment; right-to-work states 16.2 
percent, other states, those are forced-union states, 9.3 
percent. Percentage real growth in private sector employee 
compensation; right-to-work states 15.3 percent, forced-union 
states 8.4 percent.
    So we have heard all kinds of other different statistics 
here. Dr. Gould had a different starting point. If you start in 
1970, you get a different number. I think they are important. 
And it is important for us to understand where we are starting 
when we are looking at these statistics.
    So trying to--in my continuing futile effort to set the 
standard here, I am going to yield back and recognize Ms. 
Fudge. I think you are next.
    Ms. Fudge. Thank you very much, Mr. Chairman. And thank you 
all for being here and for your testimony.
    Mr. Chairman, here we are again. We are here at the same 
place we were before talking about states' rights. Here we are 
again, moving back in time to a place where we want to ignore 
established law, we want to once again put states in a position 
to make a determination as to who should work and who should 
not. We have come to a point where we are disproportionately 
once again affecting populations who are poor and populations 
of color.
    I listen to the governor talk about what happened back in 
1953. Mr. Mix talked about what happened in 1944. That was 
before the Civil Rights Act of 1964. It was before the Voting 
Rights Act of 1965. It was before nondiscrimination labor laws. 
So let's not talk about the past. Let's deal with established 
law.
    Professor Bruno, you talked about, or gave us examples of 
workers who are costing the government more money because they 
are in right-to-work states. Could you expand upon that, 
please?
    Mr. Bruno. So if you take a look at the percentages of the 
population within states that are collective bargaining states 
and right-to-work states over a period of time and look at what 
percentage of their population, for example, would be receiving 
food stamps and the total dollar value of those food stamps, or 
you were looking at the Earned Income Tax Credit, as two--just 
two examples, and compare those to collective bargaining 
states, which would obviously have a higher unionization rate, 
what you find is that those right-to-work states are receiving 
a larger percentage, if you will, value of government 
assistance back to those states than they are contributing to 
the Federal Government, as opposed to the collective bargaining 
states.
    Illinois being one as an example, which actually pays more 
in federal taxes to the government than it gets back in federal 
assistance. And we can look at--also look at poverty rates and 
can see that in these three collective bargaining states, 
poverty rates are lower. So that is the issue that I was--
    Ms. Fudge. So basically then you are saying that you have 
data to prove that people who are on government assistance are 
not just lazy, just don't want to work? We are talking about 
working people; correct?
    Mr. Bruno. Oh, absolutely.
    Ms. Fudge. Just wanted to make sure about that.
    Mr. Bruno. No question about that.
    Ms. Fudge. Thank you very much.
    Ms. Gould, could you please elaborate on the institute's 
findings that over the last 10 years, there has been a lost--it 
has been a lost decade for American workers?
    Ms. Gould. Sure. Great question. What we have seen over the 
last 10 years, and unfortunately even longer than that, is very 
sluggish wage growth for the vast majority of Americans in this 
country. It is not just about the Great Recession and the 
losses that we saw there in employment and in wages. But the 
trends have been going much longer back than that.
    Ms. Fudge. Professor--oh. Let me go back to Ms. Gould.
    In a resent paper, the Economic Policy Institute states 
that productivity grew by 74 percent since 1973 while hourly 
compensation of a typical worker grew just 9.2 percent. How has 
collective bargaining played in that, one way or another?
    Ms. Gould. Yes, it is a great question. So collective 
bargaining we have seen--again, over that 30-year period, 
collective bargaining has been--the loss--the erosion of 
collective bargaining has meant that half as many people were 
covered by collective bargaining. We have cut the coverage 
rate, the union coverage rate, in half over that period. And 
that is the key reason why we have seen this disconnect between 
pay and productivity in this country.
    Ms. Fudge. Thank you.
    Mr. Chairman, I yield back.
    Chairman Kline. Thank the gentlelady. I am just noticing 
here, looking at statistics again and listening to Dr. Bruno, 
from the Bureau of the Census the welfare, the TANF recipients 
per thousand residents in right-to-work states is five and in 
forced union states is 15.6. So depends on where you measure.
    Mr. Byrne?
    Mr. Byrne. Thank you, Mr. Chairman. And I appreciate my 
colleagues saying we should not ignore established laws.
    Mr. Mix, isn't it a fact that the established law that is 
at issue here is the Taft-Hartley Act? And the provision that 
it has, it says that states can choose to enact their own 
right-to-work laws and those right-to-work laws are 
enforceable. Isn't that the established law that is in issue 
today?
    Mr. Mix. Yes, that is right. Section 14(b) is one of those 
unique sections that allow a state to get out from under the 
federal preemption as it relates to the National Labor 
Relations Act and allow them to outlaw union security 
agreements that require workers to pay dues or fees to get new 
jobs.
    Mr. Byrne. And in taking briefs in this case, as the Labor 
Board is doing, seems to me to be an effort to go right in the 
teeth of what that established law says by saying well, we are 
not going to make you join the union. But since the union has 
to represent you in the grievance process, whether you want 
them to or not, we are going to make you, an individual citizen 
of this country, we are going to force you to pay that union to 
do that. Isn't that an end-run around the established Taft-
Hartley law?
    Mr. Mix. Absolutely. I think the briefs in cases since that 
time indicate that very fact.
    Mr. Byrne. So isn't the real issue here today that we have 
got this 800-ton gorilla, the big unions in America that want 
to throw their weight around and take freedom and liberty away 
from individual citizens like Mr. Hewitt and force them to pay 
these unions money because the unions are losing membership and 
they are losing money? Isn't that what this is really all 
about?
    Mr. Mix. I think so.
    Mr. Byrne. So, Mr. Chairman, we come to these things and I 
hear people say well, we don't know what the Labor Board is 
gonna do. I know what the Labor Board is gonna do. Every time 
we come in here we say we don't know what they are gonna do. We 
all know what they are gonna do. They got three people on that 
board and they are gonna do whatever the labor unions want them 
to do.
    Now, heretofore, what they have done, Mr. Mix, I think is 
they have changed precedent as established by case law by the 
Labor Board. This, however, would be going into the teeth of a 
congressional statute. Isn't that the difference?
    Mr. Mix. That is correct. I think that courts have ruled 
and briefs have ruled that in order for this to be changed, you 
have got to come to Congress.
    Mr. Byrne. And instead what they are trying to do is go 
around Congress, because they know that we are not going to do 
what we want them to do.
    I was listening to the testimony from Mr. Bruno. Mr. Bruno, 
you said that businesses don't cite right-to-work laws as 
reasons to locate a business. I have talked with dozens and 
dozens and dozens of businesses who have considered coming to 
the state of Alabama, a right-to-work state.
    Every time they mention two things. They never talk to me 
about incentives, by the way. They talk about the quality of 
your workforce. And I am proud to say we have got great workers 
in Alabama, as I know you do, Governor, in Nebraska. And the 
second thing they say is your labor laws, particularly the fact 
that you are a right-to-work state.
    Where in the world are you getting your information that 
business people don't take that into account?
    Mr. Bruno. Well, thank you, Congressman. So there is a 
business magazine referred to as Area Development Magazine. And 
there is an annual survey that is done of corporations in which 
CEOs are asked about decisions to relocate their businesses. 
And there are up to 30, 40 different factors that are usually 
mentioned. And according to the research that I have done 
looking at--and others have--that labor policy, right-to-work, 
rarely ranks higher than 16 or 17. What ranks much more--
    Mr. Byrne. Then why are all these people--why are the 
states--you just heard the Chairman give the data. Why are 
these states that have right-to-work laws, why are they 
growing? Why is employment growing in those statements and not 
in states that don't have right-to-work laws?
    Mr. Bruno. Well, actually, it is not completely true that 
states that have collective bargaining agreements or that are 
collective bargaining statements aren't growing. Just to use 
Illinois again. Illinois actually created more jobs than its 
neighbors did in the past fiscal year--
    Mr. Byrne. Well, if you--we are running out of time. But 
please send me those--
    Mr. Bruno. There are lots of--
    Mr. Byrne. I am going to go to the economic development 
conference in my state in a few weeks here. And I am gonna show 
them your research and I can't wait to see their reaction.
    Last thing I want to go over with you. You said that wages 
are going down for people in right-to-work states. Go look at 
Alabama's data. Since we have shed unions, our workers' wages 
have gone steadily up. And our workers are voting with their 
feet by going to these employers that are nonunionized because 
they are better places to work, where they get better wages, 
wages that people in Alabama have never been able to dream of. 
And when they keep bringing these union elections back to 
people like Austal Shipyard in my district, the employees say 
we don't want it.
    And, Mr. Chairman, I don't think we should make those 
people pay a dime to a union if they don't want to. Thank you, 
sir, I yield back.
    Chairman Kline. Gentleman yields back.
    Mr. Pocan, you are recognized.
    Mr. Pocan. Thank you, Mr. Chairman. And thank you to the 
witnesses for being here today.
    First of all, Mr. Chairman, I think, you know, the 
Committee, the name we have for today's hearing is a little 
misnamed and misguided. I think right-to-work laws prohibit 
union fees as a condition of employment. But grievance fees, if 
deemed lawful, are not a condition of employment. Grievance 
fees are not an attack on right-to-work laws. So the hearing is 
misnamed.
    In fact, I would argue that we should be talking about 
right to freeload, rather than right-to-work laws. Because that 
is what I see out of this, is really a right to freeload. In 
fact, Mr. Mix, in your written testimony you talk about this 
idea of someone getting in a cab. Well, this morning I got on 
the metro, all right? And I swiped my card to pay. If someone 
else decided the metro's already going where they are going to, 
why don't they just hop the fence and go in, I would consider 
that freeloading.
    And that is exactly what I see by people not paying their 
fees; right? I mean, we know there are cheap people in society, 
right? They don't want to pay to get the benefits like the 
others. But really, it is more about freeloading more than 
anything else. And I think that is what is behind these right-
to-work laws.
    We just went through this fight in Wisconsin. So I am very 
familiar with it. In fact, one of the other things that in 
addition to the freeloading aspect of this, it is not just that 
you make less money and you get less benefits, but also it 
doesn't create jobs. And it is not just the anecdotal sort of 
this is what happens in Alabama. But this is Bureau of Labor 
Statistics.
    And I am very sensitive to these because I got 
PolitiFact'ed on this. And I got a mostly true because I said 
Wisconsin was dead last in the Midwest for job creation. 
Technically, we are tied for dead last. Nebraska was, in this 
particular report, tied for second to last.
    But right-to-work doesn't seem to be having that magical 
formula of creating additional jobs, at least according to the 
Bureau of Labor Statistics, who actually counts the jobs, 
rather than anecdotes about individual states.
    But the bottom line is people really do make less money. We 
know that. We know according to some studies you make $6,000. 
In other studies you make $7,000 less than states with right-
to-work. And then I believe you make $4,000 less than the 
national average in right-to-work states.
    So again, those are concrete numbers that show that you 
have a right to work for less in these states. But it doesn't 
necessarily benefit any people.
    What I would like to do is that I would ask unanimous 
consent to enter into the record, I have got a list of 468 
businesses in Wisconsin that oppose the right-to-work law that 
we just had.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Without objection.
    Mr. Pocan. And the reason I raise this is just the 
conversation we just had. You know, we talked about the dozens 
of businesses who are coming to Alabama because they didn't 
have right-to-work laws. And yet, interestingly, in Wisconsin 
when we had this fight, some of the leading opposition to the 
right-to-work laws came from local business leaders, 468 
businesses.
    So Dr. Bruno, if I could just ask you that question 
specifically. You know, we know you are gonna make less, we 
know you are gonna get less benefits, we know you can freeload 
by being not able to, you know, pay anything when you are gonna 
benefit from something. But why would businesses be so strongly 
opposed to putting a right-to-work law in place? Why would that 
happen?
    Mr. Bruno. Well, thank you, Congressman. For a number of 
reasons. There are a number of studies that demonstrate that 
union workers are highly productive. There has been a series of 
meta analyses, which--or studies that look at other studies and 
summarize those and find that productivity gain can be, you 
know, 7, 10 percent. In the construction, the unionized 
construction industry, 17 to 20 percent.
    Look at the high percentage of union members actually that 
have master's degrees or college degrees compared to similarly-
situated nonunion workers. And we know that education is 
powerfully correlated with productivity. So it is a highly-
productive workforce. It is a safer workforce. Think about 
workman's comp cost.
    In fact, most employers, when they look at what really 
drives where they are gonna go, they are looking at policies, 
but it isn't that labor policy. It is not that labor management 
policy. It is about regulations. It is about taxes. It is about 
workman's comp. Those issues--
    Mr. Pocan. I am glad you said that. Because, I mean, 
anecdotally, you know, Ameritrade may not trust their workers 
to collectively make some decisions. But a lot of these 
businesses do. You know, and I have a union shop, just for the 
record. And because I have people who stay long in the 
business, I don't have to retrain them. And because we have 
apprenticeship programs to make sure that people are highly 
trained so that I can get more business because they know that 
they are gonna get a better quality product. I just want to 
hear the anecdotal--I didn't want it to just be an anecdotal. I 
wanted to have it from your side.
    Dr. Bruno, this freeloading argument. I mean, am I wrong to 
say, essentially you are freeloading if you are not paying a 
grievance fee and you are still getting a benefit? Isn't that 
like the example of the metro hopping over the turnstile?
    Mr. Bruno. It seems to be consistent with what we learned 
in kindergarten, quite frankly.
    Mr. Pocan. Yes.
    Mr. Bruno. Right? Everybody should make a contribution. 
Everyone should be treated fairly. It is about accountability. 
You are receiving a benefit, a sizable benefit. That grievance 
could lead to an arbitration that saves your jobs that over a 
career could amount to thousands of dollars. You benefit not 
just in the moment, but you benefit maybe over a lifetime. And 
you have contributed nothing to it.
    But you perceive that if you contribute nothing to it, the 
strength of the union will always be there. Notice they are 
saying that they are working for that unionized company. 
Because they want that union to work for them. They are simply 
looking at the options and saying if I can get it for nothing, 
some people will do that.
    Chairman Kline. Gentleman's time is expired.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Thank you to our 
distinguished guests today.
    Is there anything to prohibit a person from voluntarily 
paying a union fee?
    Mr. Bruno. No.
    Mr. Bishop. So if they wanted to join a union and get those 
benefits, they could do that voluntarily?
    Mr. Bruno. Yes.
    Mr. Bishop. I am from Michigan, so all of this I take very 
personally. We are a labor state. We are a proud labor state. 
For many years, Detroit was the arsenal of democracy. And we 
did very well back in the day. And then came about 2000 to 2010 
where Michigan hit a significant downturn. Everything turned 
upside down. Jobs fled, people fled. We were one of the only 
states in the union that actually lost population. And we would 
have lost more if the housing market wasn't so bad. People 
couldn't sell their houses; locked in place. And we shed jobs, 
especially in the manufacturing sector.
    About 2010, the people of our state said enough is enough, 
they kicked out our former governor, brought in a whole new 
group of leaders who made some really tough decisions from 2010 
until now. One of those decisions was right-to-work. And if you 
had told me 10 years ago that Michigan would be a right-to-
work, I would have told you, you are crazy.
    But everything you are telling me is completely contrary to 
my experience. Michigan has completely turned around. It is not 
just because of right-to-work. It is because of a lot of other 
things. But our unemployment rate is now 5.4 percent. And all 
those union workers that used to be involved in the union, who 
can now voluntarily belong the that union, are working again. 
And instead of being forced out of the state and being 
displaced, they are now working again.
    And to me, the decisions that were made, although tough and 
contrary to our history in terms of the culture of the state, 
made a difference. So my experience is different. So when you 
tell me these statistics, I can't believe what I am hearing.
    But I would like to know, Governor Ricketts, I hope if you 
could just--and I would like to talk to Mr. Hewitt too and his 
experience as well. And I appreciate your being here. Because 
we need your testimony, as well.
    Put your executive hat back on again. Help me out here. 
Governor Snyder in the state of Michigan is trying to attract 
new business. How does right-to-work help your state? Can you 
give us some information? We just heard that it--there are 
some--some businesses that want the right to--or want a union 
environment. How does right-to-work help your state?
    Governor Ricketts. Sure. I think fundamentally what right-
to-work does is it is about freedom. It is about the 
opportunity to choose. And so when companies and employees are 
thinking about that right, they want to have the most 
optionality they can, or the greatest ability to choose.
    Certainly, in my experience in the real world, it is a 
competitive advantage. We made decisions about where we were 
going to expand based upon that absolute fact. And so, you 
know, that was kind of the first question. If you are not a 
right-to-work state, none of the other things are gonna matter. 
We are not even gonna check you.
    You know, we are not gonna look to see what your workforce 
is like, we are not gonna look the see what your roads and 
infrastructure is like if you are not right-to-work. We have 
got plenty of other states that are right-to-work that we can 
go find those similar types of things. And that is where we are 
gonna look to expand.
    So that is a huge competitive advantage for any company 
located in a state that is a right-to-work state to be able to 
draw--you know, to have. And why it is an advantage with states 
to draw those companies in or to look to get companies to 
expand there. I think it allows people to have more freedom, 
more flexibility.
    And again, it gets back the choice. You know, again, my 
experience in Nebraska is the people in Nebraska overwhelmingly 
support this. They have for almost 70 years. And it is one of 
the things that we certainly looked for when I had my executive 
hat on. And now, as governor, I am looking to make sure that we 
continue to retain that; that the NLRB doesn't do--undercut 
that rule so that we can continue to try to attract jobs to our 
state. And we do have the lowest unemployment rate in the 
country and one of the highest--we do have an above national 
average workforce participation rate, as well.
    Mr. Bishop. Thank you, Governor.
    And Mr. Chairman, I yield back.
    Chairman Kline. I thank the gentleman.
    Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And thank you to our panel of witnesses for their 
testimony. This has been a very interesting discussion that has 
obviously gone beyond the scope of what is suggested by the 
title.
    And I just wanted to make a big picture comment to start 
about some of the language. There was an analogy about union 
membership being analogized to kidnapping and extortion. And I 
think that kind of message is not very productive in a 
discussion about the benefits of union membership. And as some 
might say, not benefits. But let's have a discussion that 
doesn't inflame people.
    And interesting that I am following on the member from 
Michigan. I actually was born and raised near Detroit. So my 
grandfather worked for Ford Motor Company before 1941, before 
the UAW came to Ford Motor Company. And just looking at the 
differences in his workplace over time from before the UAW was 
there in terms of safe working conditions.
    And when we talk about union members, you know, we 
shouldn't make these stereotypes with the inflammatory 
language. We are talking about teachers and firefighters and 
people who take care of sick patients. You know, there is a 
really broad range of people in unions. So let's make sure that 
we are having a factual discussion.
    So I represent a district in Oregon. We were the first 
state to officially recognize Labor Day back in 1887, and 
firmly believe that the workers in Oregon as well as across the 
country should be able to collectively bargain for fair wages, 
reasonable hours, safe workplace, health care, other hallmarks 
of a democratic society.
    And unions continue to do things like build the 
infrastructure, help our economy grow, strengthen the 
innovation of America's workforce has long been the key to our 
success as a nation. And looking back over history, we cannot 
understate the role of the labor movement in helping to create 
and maintain a thriving middle class.
    So in Oregon, I know we have had some discussions about the 
disparity in wages between union members and people who aren't 
in a union. But for example, the University of Oregon Labor 
Education Research Center identified the median hourly wage for 
a certified nursing assistant in an Oregon nursing facility. 
And there was a difference--$12.15 but in a unionized facility 
it was $14.29. With insurance and retirement benefits included, 
a little more than $15 an hour.
    So when you talk about those differences in wages--and 
obviously, as we saw in--over history, when people have more 
discretionary income, they spend more so--in the marketplace.
    So I wanted to ask you, Dr. Gould, your testimony states 
that wages in right-to-work states are lower than in states 
without right-to-work. And there is obviously a difference in 
states across the country. We have a very diverse country. So 
can you explain whether and how this remains true, if there 
are--differences in tax policy, demographics, education, other 
types of industry.
    And I know my state of Oregon is not a right-to-work state. 
And we have businesses that love doing business there. It is a 
place to live. There are a lot of other factors that go into 
that consideration. So can you talk about that, whether there 
is data to show, considering those variations to the whole.
    Ms. Gould. Sure. Absolutely. That is a great question. And 
I think the example that you gave is a great example. You are 
talking about within your state where the policies and laws are 
similar, the economic conditions are similar, and you are 
comparing a CNA in a union shop with a CNA in a nonunion shop 
and looking at those wage differences.
    What we do when we look at right-to-work states and non-
right-to-work states is we are trying to do exactly the same 
thing. We are trying to look at individuals that are all else 
equal and see if their wages are any different.
    So to do that properly, we use multi-varied regression 
analysis, and we can control for the racial composition of that 
state, we can control for the educational attainment of people 
in that state, we can control for the occupations, the 
industries, all the different factors that might be different. 
The cost of living in one state versus another. And when we 
control for all of those things, we still see that right-to-
work states have 3.1 percent lower wages.
    Ms. Bonamici. Thank you. And I am gonna try to get one 
quick question in.
    Dr. Bruno, your testimony says that the right-to-work 
states lead to a reduced state tax collection. In part because 
of the Earned Income Tax Credit and increases in use of 
programs like SNAP. So what studies have been done to quantify 
these costs to government from right-to-work laws?
    Mr. Bruno. The study that I am referencing is a study that 
we did here at the University of Illinois. I believe it is 
referenced in the written testimony that we submitted when we 
actually took a look at essentially the way in which two 
states--and we were looking at Illinois and other collective 
bargaining states and Indiana as a neighboring state trying to 
measure this.
    So there is actually a report that we did at the university 
that I could certainly make available to you that made this 
comparison.
    Ms. Bonamici. Thank you, Dr. Bruno.
    My time is expired. I yield back. Thank you, Mr. Chairman.
    Chairman Kline. Thank the gentlelady.
    Mr. Allen?
    Mr. Allen. Thank you, Mr. Chairman. And thank you, 
distinguished panel, for your testimony here today. It has been 
very enlightening.
    As a business owner for the last 37 years in the state of 
Georgia, I have experienced lots of activity, both with the 
union and nonunion workers. Actually, the company I started 
working with was union. And then when we formed our company, we 
elected to go nonunion at that time because that was sort of 
the trend. And that was in the mid-1970s.
    One of the things that I value about our employee 
relationship is the fact that, you know, we are--kind of turned 
the hierarchy upside down. The workers actually have a good bit 
to say about how we run our business. And we like it that way. 
And I found that in my union involvement, it was always a 
conflict. And it was very difficult to deal with.
    But I will say that Georgia was selected by Site Selection 
magazine as the number one state to locate a business in. And 
we have been a right-to-work state for a long, long time. And 
we too are very proud of our workers and our productivity, our 
cost of living, which I don't think we have talked about cost 
of living or the cost of products and things like that make a 
big difference and competitiveness, makes a big difference, you 
know, where we are.
    And the fact that our workers love where they work. And I 
have experienced that touring many of our manufacturers 
throughout the district since I was just recently elected to 
Congress. And what I have been amazed at is the attitude of the 
workforce out there with these manufacturers. And it has been 
quite enlightening to me as far as the labor front goes.
    Mr. Hewitt, we haven't asked you a question. And I have 
been involved in United Way. I love that organization because I 
think it is like 90 percent of what we raise actually goes to 
help the agencies and the folks we are trying to help. And that 
is what community is all about.
    And I am sure as a National United Way, you have talked to 
others in the--around the--I don't--we are not union. Our 
United Way is not union. They are in Augusta. But in your 
talking with these other United Ways and your having to spend 
apparently a lot of your time dealing with these union issues, 
how are you doing that and still being able to serve the very 
folks that need serving? Can you explain that?
    Mr. Hewitt. I put in a lot of hours. Most of this behavior, 
all of this effort is done off hours, individually, via 
individual email. It is not done during company time.
    Mr. Allen. Right.
    Mr. Hewitt. And it is--we do--I am a little upset, because 
we do have a lot of union involvement. And there have been 
extreme threats of pulling back, pulling away and not 
supporting to the degree that they have. There have been claims 
that unions in our area support your organization. And because 
you are doing this antiunion thing of disassociating, we are 
going to pull our support.
    Now, okay, you are affecting the community because we, as 
the members, find that we are not represented; that we, in 
fact, do not have a union that works for us, but work for 
themselves. Because we are raising our hands and objecting to 
that and trying to exercise our rights, you want to affect the 
entire community?
    Mr. Allen. Let me see if I heard you correctly. In other 
words, the unions don't quite understand exactly what your 
mission is here? I mean, your mission is to help folks who--
    Mr. Hewitt. It seems not to matter. It seems not to matter.
    Mr. Allen.--are unfortunate and can't help themselves.
    Mr. Hewitt. Right.
    Mr. Allen. So they don't care about that?
    Mr. Hewitt. That is the message. I am hoping that it--
    Mr. Allen. That is shocking.
    Mr. Hewitt.--was just said in anger.
    Mr. Allen. Yes.
    Mr. Hewitt. It didn't prevent our membership from standing 
up for our rights and for saying in spite of that, we don't 
feel that we can continue. A number of our members did, 
obviously. We had 100 percent participation, but we had 62 
percent who said no, we cannot continue--
    Mr. Allen. It is unconscionable that people in America 
would have strings attached to the cause to help the--
    Chairman Kline. The gentleman's time has expired.
    Mr. Allen. I yield back.
    Chairman Kline. Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I really find this 
conversation interesting. Having grown up in two states that 
are not right-to-work states, Massachusetts, and have lived 
most of my live in the Bay Area, both areas that I would argue 
are cornerstones to innovation in this country but also have 
strong historical labor movements.
    So while I appreciate the details of Mr. Mix and the issues 
about around what NLRB is about to do, I tend to believe that 
NLRB will do as it is designed to, as it is designed to do in 
the political context of who is appointed to that, depending on 
the administration. And then the courts will opine one way or 
the other.
    So I am more interested in sort of the macro of--Mr. 
Lincoln once said that in the United States, we should always 
keep capital and labor roughly within balance. And he also said 
if capital were to become out of balance and superior, we would 
lose American democracy, which is my fear sitting here today.
    And I say that as a former union member, but also as a 
former business owner of nonunion restaurants. I tended to 
think that if I treated my employees well, they wouldn't have a 
reason to organize. Sort of similar to what I have heard from 
the governor and previous comments.
    So, Dr. Bruno, in the larger context, it seems irrefutable 
that we are in a period where we are in an economy that 
requires--is 70 percent consumer-driven. If you don't have 
people who are making enough income--and this is one of our 
challenges in the Bay Area where, by the way, we get a third of 
the venture capital in the United States comes to the 
innovative companies in the Bay Area. Our struggle is the cost 
of housing and the cost of living there.
    And it seems pretty irrefutable that we need to have higher 
wages for people to buy tech products and be able to afford to 
live there.
    So Dr. Bruno, I'd just like to ask you in your last 
comment, you said, ``the gradual decline in unionization has 
been found to be a driving force in the increase in income 
inequality both in the United States and across the world.''
    In light of the comments that I made and the need to have a 
strong consumer class as your research, Dr. Gould, led you to 
believe at a larger level, we need to do some adjusting to the 
imbalance of capital markets and what we compensate workers for 
in America.
    Mr. Bruno. Thank you. It is indisputable that consumer 
society is driving our economy. And workers are going to 
generate demand. They will generate that demand with the income 
that they are able to spend. And as you noted, if 70 percent of 
job growth is in a low-wage service sector, these are workers 
who are not going to be able to save money, they are not gonna 
be able to spend beyond a sort of basic sustenance level.
    And you are gonna need some labor market institution that 
can aggregate their interest and go into the employment 
relationship roughly on an equal balance to negotiate, to 
negotiate collectively. Let's not forget, that union is not an 
isolated entity. It represents those workers who have freely 
chosen that union. They are in that union. Their interests are 
collectively brought together. They negotiate on behalf of 
those workers.
    That is the way in which in 1935, Congress understood that 
you could save, if you will, you could protect, you could 
promote capitalism, you could promote the free market by 
putting money into the pockets of workers who would have a 
little bit more negotiating capacity in the workplace.
    And, quite frankly, I have looked at thousands of 
collective bargaining agreements. They can be very nimble, they 
can be very smart, they can address productivity in different 
ways, they can problem-solve.
    And if I could, in 2003 a study was done that looked at 
this productivity question. And just to quote from it, ``the 
evidence indicates that in the United States, workplaces with 
both high-performance work systems''--and I think that is what 
Congressman Allen was experiencing in Georgia, which is 
wonderful, ``and union recognition have a higher union 
productivity than other workplaces.''
    But without the union or bad set of labor relations, keep 
in mind that contract helps to settle disputes. You can keep 
your most talented workers in that workplace. So I don't 
understand how you can build a strong and middle class--and we 
have never done it. We haven't built a strong middle class in 
this country without an independent, strong robust labor union.
    And it is hard to find a similar example in an 
industrialized country that is a democracy anywhere in the 
world which hasn't had a strong independent labor union.
    Mr. DeSaulnier. Thank you, Doctor.
    I yield back the remainder of my time.
    Chairman Kline. Thank the gentleman.
    Mr. Grothman, you are recognized.
    Mr. Grothman. I have a couple questions for Dr. Bruno. We 
have recently been through rather significant changes in our 
labor laws in the state of Wisconsin. And both in the public 
sector and private sector. The public sector--the private 
sector change is fairly recent. Haven't had time to analyze it.
    But at least in the public sector, I can think of a few 
examples in which, because you don't have collective 
bargaining, individual employees were able to make more. And, 
of course, that is because under most labor union contracts, 
everybody is treated the same. And if you have one employee who 
is more productive than another employee, or you have one 
employee whose job is different than another employee but the 
labor union tries to put them all in the same box, people are 
denied their ability to make what their job would.
    How do you justify telling a very productive employee or 
perhaps an employee whose job description is a little different 
than another employee that they have to have their wages 
artificially held down by a union contract that they are forced 
to pay to negotiate?
    Mr. Bruno. Well, thank you, Congressman. There are a number 
of things in your statement and your question. I would note, of 
course, that nothing's holding back the employer from offering 
to pay people more. They could arrive at a negotiated 
settlement in which they do pay people more.
    And collective bargaining agreements can have a variety of 
different job titles, job occupations that they are doing under 
that collective bargaining agreement. That was true in the 
steel industry for decades. And those titles had different--
they pay with different levels of pay. In the construction 
industry on a large construction site, what that pay is going 
to be for the painter or the glazier or for the electrician, 
those rates are gonna be set at different levels. So there is 
the ability to be nimble in that regard.
    But, quite frankly, if, in fact, the union and the employer 
are interested in finding ways to make their workers more 
productive or benefiting/rewarding those workers because they 
want to keep them in that workplace, there are ways that can be 
done. The collective bargaining agreement is between the two 
parties. And we should let the two parties figure that out.
    Mr. Grothman. Well, certainly, Dr. Bruno, you must know 
that in mostly every union contract the goal is to treat 
everybody the same. I am not saying it is impossible that 
someday there is going to be an enlightened union that treats 
different employees differently. But, for example, in a school 
system there are certainly jobs that are more demanding than 
other jobs and in your standard contract both employees are 
treated identically. You certainly must know that is the norm.
    And as the result, you are holding back some employees who 
would naturally make more--from making more because of the 
union contract.
    Mr. Bruno. What the contract is attempting to do is to make 
sure that any employment decisions made are not random or 
irrelevant so that people are treated fairly. So there is an 
egalitarianism expressed throughout that agreement. I don't 
think anybody would disagree that is an important--that is an 
important component.
    But there is nothing, quite frankly, that is demonstrable 
that union contract has somehow withheld earnings from a worker 
that could have earned more. The data is quite clear that when 
you compare apples to apples, workers in a unionized setting 
are earning more than workers in a nonunion setting.
    Look at the UAW's contracts now with the big three. They 
are actually--look at Ford. Particularly, a new book has just 
been released by a colleague. And it is a pretty impressive 
story of how to bring an industry back. It is a really good 
model. We should look at it.
    Mr. Grothman. Okay. I mean, I guess I find it hard to 
believe that you don't realize a goal that--maybe it is a good 
goal--is that whether you are a better or worse employee, you 
are all treated the same. But I am gonna give you one more 
question.
    In your testimony, you said that corporate decision 
makers--surveys of corporate decision makers of right-to-work 
laws are not a defining factor in business location. Now, I 
believe they are. I have been told that by some business 
leaders. Usually, they qualify it by saying I am never gonna 
say that publicly. Because of course the unions are very 
powerful, and no person is publicly going to say I am putting 
my factory in Kentucky rather than Illinois because of a union 
situation.
    Have you ever done studies of large businesses, maybe large 
foreign-owned businesses as they have a chance to choose 
whether they are gonna with be in one of the 25 right-to-work 
states or 25 states that aren't and seen overall when these 
companies, including--and I know there are a couple of 
exceptions--including, for example, foreign auto markers, where 
they decide to locate and whether or not that is an 
overwhelming factor. Because I--
    Chairman Kline. I am sorry. The gentleman's time has 
expired.
    Mr. Grijalva?
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    And the state that I was born in, live in is a right-to-
work state, Arizona. And from what I have heard today of some 
of the comments, I--you know, I guess right-to-work laws are 
the panacea for citizen democracy, economic growth, individual 
growth, economic growth, as well.
    And the fact remains, though, that ongoing and not only in 
my state but across this country, there is a very fundamental 
economic problem that families are facing in this country. That 
is stagnant wages and income inequality across the board.
    And let me turn to Dr. Bruno, Dr. Gould. Right-to-work laws 
as being promoted today, putting aside the fact that there is 
nothing in law that prevents a rule that requires employees if 
you are taking the benefit of a grievance representation, then 
you should be able to kick in a little bit in terms of a fee 
for that representation. There is nothing.
    But having said that, income inequality and the right-to-
work law as the salve that is going to take care of this issue, 
which continues to persist. One question.
    Have either of you--has there ever been any study--because 
when we talk about economic growth, I think it is always good 
to put another ledger there in terms of the public subsidies 
that go into bringing a company into a state--tax relief, 
forgiving taxes for 10 years, building the infrastructure--as 
an attraction to bring that in and what that public cost is, as 
well.
    With that, let me--that is the only question--
    Mr. Bruno. Well, if I could, I--again, knowing Illinois 
maybe a little bit better. At conservative estimate, there are 
well over 400 very profitable corporations in Illinois. And 
actually, many of them are international companies that pay 
zero in taxes or a very, very small percentage. It is millions 
of dollars that are not being paid into the public treasury. 
And this was a decision made by the state's leaders to create 
an incentive for folks to be there.
    And this is a right-to-work state--I am sorry. Whoa. This 
is a--retract that. This is a collective bargaining state. And 
these businesses have been attracted there. And that is just 
one of the tools that the state legislature has used.
    So I know, particularly in this case, it is millions of 
dollars that are not paid into the public treasury. And I 
imagine the bet was that having those companies there--and the 
vast majority of these companies are working with unionized 
employees--that they are actually generating work, they are 
generating dollars that is important to the state's overall 
economy.
    Now, I haven't looked particularly at what the net is 
there. But it is considerable in terms of the tax exemption or 
the tax expenditure that is happening in Illinois. And I 
imagine it is true in most other states.
    Mr. Grijalva. Dr. Gould, back to the wage, the income 
inequality issue that is persistent and hasn't seemed to move 
in a positive direction for quite a while.
    Ms. Gould. Yes. Stagnant wages for the vast majority 
explains the entirety of the rise of income inequality. Because 
the pay productivity gap is clearly incomes going somewhere 
else. They are going to wages at the top. They are going to 
corporate profits. And so all of these things.
    And if you look at states where collective bargaining has 
eroded the most, they had the weakest growth in middle class 
wages. So those two things are intertwined.
    Mr. Grijalva. You know, I mentioned--I asked the question 
about the subsidy and the income stagnation that we are seeing 
in reference to Arizona. As we attempt to attract and promote 
the idea that you can come here because we are a right-to-work 
state, also on that same picture, in that same mirror is we are 
second lowest in per-people expenditures for education in the 
country, lowest for taking care of children in terms of health 
care, and lowest in terms of great actual wage growth.
    So, you know, when you look in the mirror, it is not always 
the picture that has been painted today.
    I yield back.
    Chairman Kline. Gentleman yields back. Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. And thanks to the 
panel for being here.
    I would state, Professor Bruno, your slip on Illinois being 
a right-to-work state. From your lips to God's ears, I hope.
    As a proud son, proud son of Illinois and a former United 
Steelworker working at U.S. Steel South Works. And if you know 
anything about U.S. Steel South Works, it is no longer there. 
The union could not save South Works. Electric furnace where I 
worked the, the bop shop, the blast furnaces, the rolling 
mills. Now, there are other problems with that, as well. It is 
not only the United Auto Workers fault. I understand that.
    But in our setting, in Michigan where I live now--and I can 
proudly say we are a right-to-work state. And I have colleagues 
often ask me, did I remember accurately that Michigan is a 
right-to-work--yes, it is. But it is more than that. It is an 
employee free-choice state. It is also an employer free-choice 
state.
    Because like my friend and colleague, Mr. Pocan from 
Wisconsin who is a business owner and has union at his 
business. Has that choice, as well. My father helped organize 
U.S. Steel United Workers there. Proud union member. Until 
later years when he said wait a second, we got the things we 
needed; working standards, safety, benefits and other things 
that are important. But now, let's make sure we keep the jobs, 
as well.
    And so let me ask you, Governor Ricketts, and thank you for 
being here. Why do entrepreneurs and start-up companies value 
right-to-work legislation?
    Governor Ricketts. One of the things that start up 
companies and entrepreneurs are looking for are making sure 
they have access to the best talent. And people who, you know, 
they are looking to attract are looking to have choice.
    And so I think that, again, when you are talking about 
undermining the right-to-work laws, such as the NLRB is talking 
about doing right now for Nebraska which, again, in our 
constitution. You are making it harder for us to keep those 
young people here in Nebraska that would be attracted to these 
companies and are start-up companies to be able to create those 
jobs.
    So to me it gets back to choice and attracting the best 
talent available.
    Mr. Walberg. Mr. Mix, you know Michigan well from your 
efforts on right-to-work legislation for many years there, as 
well. The unions weren't able to save General Motors or 
Chrysler and the jobs, specifically, of their employees.
    But more importantly, in my district where not only do we 
have auto plants, but we also have the suppliers. Those little 
businesses, some that were unionized, some that weren't, have 
had a much more traumatic impact, and they are gone. Some went 
to the southern states where they had better opportunity, as 
well.
    It is frequently stated that employees in right-to-work 
states are paid less and receive fewer benefits than similar 
employees in states that are not right-to-work. Is that 
accurate, Mr. Mix?
    Mr. Mix. Absolutely not. In fact, we have evidence from the 
AFL-CIO that indicates otherwise. They did a study called the 
Interstate Study of Cost of Living Wages. And when they 
adjusted for cost of living, what they found was that workers 
in right-to-work states had about $1,250 more a year in mean 
disposable income than workers in forced unionism states.
    It is just not. I mean, these studies don't adjust for cost 
of living. In fact, a new study is out about California having 
the highest poverty rate of any state in the country when you 
adjust for cost of living. There are meaningful comparisons 
that need to be made between wages from Utah and New York. If 
you do that and you adjust for wages, you find that workers in 
right-to-work states are actually better off, with more 
disposable income.
    Mr. Walberg. Is security of jobs also a part of that 
factor?
    Mr. Mix. Well, absolutely. Absolutely. You know, it is 
interesting. I wish that Congressman Pocan was still here. 
Because, you know, he says Wisconsin has been last in job 
growth--or tied for last for the last couple years. They have 
only been a right-to-work state for two months. I would ask him 
to be patient.
    On the other front, the idea the metro rider, that guy who 
jumps over the fence does it illegally. The worker that is 
forced into a cab does it by force. But, the idea of having a 
job is important. I mean, 78 percent of all automotive 
manufacturing activity in the United States of America now 
occurs in right-to-work states. I mean, there is a reason for 
that.
    Volvo just announced growth in South Carolina; BMW; 
Volkswagen in the right-to-work state of Tennessee. Good things 
are happening in those states. And good things are happening in 
other states, too.
    But the idea of allowing individual workers to choose is 
really the fundamental issue here. I mean, let's get back to 
the basics. Will we as a country force a private organization 
to force a worker to pay dues or fees to work?
    Mr. Walberg. Can employees pursue their grievances outside 
of the procedures in the CBA?
    Chairman Kline. The gentleman's time--
    Mr. Mix. They cannot. They cannot.
    Chairman Kline.--has expired.
    Mr. Jeffries.
    Mr. Mix.--they can't.
    Mr. Jeffries. Thank you, Mr. Chair.
    Let me start with Mr. Mix. To the extent that a union in a 
right-to-work state collectively bargains a higher wage, the 
nonunion employee benefits from that higher wage; correct?
    Mr. Mix. That is correct. They are forced to accept that 
union as their bargaining agent. That is correct.
    Mr. Jeffries. They are forced to accept a higher wage.
    To the extent that a union in a right-to-work state 
collectively bargains a more robust health care plan, the 
nonunion employee benefits from that more robust health care 
plan; correct?
    Mr. Mix. In your question, the answer is, yes. They are 
required to accept that, yes.
    Mr. Jeffries. Okay. So and to the extent that a union in a 
right-to-work state collectively bargains a strong pension 
plan, for instance, the nonunion employee gets the benefit of 
that stronger pension plan; correct?
    Mr. Mix. The answer to your question is correct because of 
the union's monopoly bargaining power that they asked for. They 
requested to be the exclusive bargaining agent. And, you know, 
they recognize that they can represent only their members.
    Mr. Jeffries. Okay. So--
    Mr. Mix. In fact, I hold a United Steelworkers brief to the 
NLRB in 2007 where they clearly recognize the ability under 
federal law to represent their members only. And if you were 
union, Congressman, if you could negotiate these benefits, 
don't you think workers would want to join you voluntarily? 
Absolutely yes.
    Mr. Jeffries. Mr. Mix, I have got limited time. So it just 
seems to me to be fundamentally unfair if you are concerned 
about unfairness that you have a situation where you have 
workers make a voluntary decision not to participate in union 
membership, not to pay dues, but nonetheless get the benefit of 
that union membership. And in the grievance context, all that 
is being asked is that a reasonable fee be paid. But let me 
move on.
    The productivity of the American worker has increased 
exponentially over the last 40-plus years; correct?
    Mr. Mix. According to the EPI study, that is what I saw--
    Mr. Jeffries. In fact, in studies that I have seen, it has 
increased since the early 1970s in excess of 275 percent. But 
at that same period of time, the wages of the American worker 
has largely remained stagnant; correct?
    Mr. Mix. I can't really comment. I think that is the 
information that was--
    Mr. Jeffries. Dr. Gould, is that correct?
    Ms. Gould. Yes, that is correct.
    Mr. Jeffries. Okay. So Americans are working more 
productively, but earning less, correct, Mr. Mix?
    Ms. Mix. According to her statistics.
    Mr. Jeffries. Okay. No one disagrees with those numbers, by 
the way, that I have seen in this institution during the two-
plus years that I have been here.
    Now, in America, do you think that there is a right-to-work 
for a fair wage and good benefits?
    Mr. Mix. I think in a country that is founded on the basic 
principle of individual freedom, I think that workers have the 
right to negotiate a fair wage for a day's work, for sure. It 
is a fundamental piece--it is actually the fertilizer of who we 
are as a country; that somebody controls their ability to work.
    Mr. Jeffries. And the better-paid workers are actually in 
fair share collective bargaining states; correct?
    Mr. Mix. I would disagree with that vehemently.
    Mr. Jeffries. Dr. Gould, is that correct?
    Ms. Gould. Yes, that is correct.
    Mr. Jeffries. Okay. Now, you made a statement, Mr. Mix, in 
my limited time, that is kind of extraordinary. So I think, let 
me just check that I got this correct; that workers in right-
to-work states are better off. Is that your view?
    Mr. Mix. That is my statement. Yes, sir.
    Mr. Jeffries. Okay. Now, is Tennessee a right-to-work 
state?
    Mr. Mix. Yes, sir.
    Mr. Jeffries. And Tennessee is one of the poorest states in 
the union, true?
    Mr. Mix. I don't know that to be fact. I can't testify to 
that fact.
    Mr. Jeffries. Okay. Let me introduce into the record a 
table, Table 709, Individuals and Families Below Poverty Level 
Number and Rate by State. This is between 2000 and 2009. 
According to this document, Tennessee is the tenth-poorest 
state in the union.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Mix. It is not the poorest state.
    Mr. Jeffries. We are gonna get to that.
    Mr. Mix. Okay.
    Mr. Jeffries. Louisiana is a right-to-work state; correct?
    Mr. Mix. Yes, sir.
    Mr. Jeffries. And is Louisiana one of the poorest states in 
the country?
    Mr. Mix. I do not know that.
    Mr. Jeffries. It is the eighth poorest state in the 
country, according to this document. Is Alabama a right-to-work 
state, Mr. Mix?
    Mr. Mix. Yes, sir.
    Mr. Jeffries. And is Alabama one of the poorest states in 
the country?
    Mr. Mix. Yes. But it is important to note that Alabama has 
a union density higher than many states that do not have right-
to-work laws, sir.
    Mr. Jeffries. Okay. And is Arkansas a right-to-work state?
    Mr. Mix. Yes, sir.
    Mr. Jeffries. Is Arkansas one of the poorest states in the 
country?
    Mr. Mix. I do not know that to be true.
    Mr. Jeffries. It is actually number two. And let's get to 
the penultimate question that you anticipated. Is Mississippi a 
right-to-work state, sir?
    Mr. Mix. Yes, sir.
    Mr. Jeffries. And is Mississippi the poorest state in the 
union?
    Mr. Mix. I believe that your table would indicate that.
    Mr. Jeffries. Thank you. I yield back.
    Chairman Kline. The gentleman yields back. Mr. Thompson?
    Mr. Thompson. Thank you, Chairman.
    Mr. Hewitt, what were the factors that led you to believe 
your union officers had become unresponsive to your concerns? 
And under what circumstances would you financially support a 
union?
    Mr. Hewitt. In what circumstances would I financially 
support? Basically, they were unresponsive because they failed 
to communicate with us during the union negotiating process. 
They absolutely refused to tell us what was under 
consideration. They refused to listen to us as we went forward, 
in spite of repeated attempts to request that they do so. So 
they were entirely unresponsive and refused to change their 
ways in any way, shape, or form. What was the second part of 
the question?
    Mr. Thompson. My follow-up question was under what 
circumstances would you financially support a union?
    Mr. Hewitt. I started this by saying that I am not anti-
union. And just because we have the right to not be members, I 
am personally going to remain a member and try to work with our 
union and to convince them that they need to listen to us; that 
if they want to ensure their future, the future of unions in 
general, they need to listen to us.
    This is the only thing at my disposal to force our card to 
force them to, in fact, listen to us. It is not that I don't 
want to pay my dues. That has--that couldn't be further from 
the truth. The fact is I will happily pay my dues if they, in 
fact, are willing to listen to me, to do as we ask them to do, 
to consider our perspective and not go off on a tangent and do 
whatever it is they want to do for themselves, individually or 
for a very small portion of the union membership.
    It is not that I would not pay. In fact, the issue at 
concern isn't really right-to-work. It is this one little 
clause that says if I have a grievance, I want to charge you 
for representation during that grievance. Well, all of my 
grievances are with the union itself. So you mean to tell me 
that I am going to have the pay the union to represent me in my 
grievance against themselves? That is just incredibly insane. 
Why would I want to do that?
    You know, I have pledged to remain a union member. I have 
pledged to continue on this fight and to continue to have these 
grievances. But my grievances are not with management. My 
grievances are with the union itself in their failure to listen 
to me, the member and the rest of our members. Those are my 
grievances.
    And to assume that their representation is valuable or to 
assume that it is desired, that is just false. I could pay to 
have them stay away. If I had to pay, I would pay someone else 
to represent me. But no way would I ever think that it would be 
reasonable for you to charge me for them to represent me 
against themselves. That is just insane.
    Mr. Thompson. Sounds like there may be a little bit of a 
bias there if the representation you had to hire was those you 
had a grievance with. Thank you, sir.
    Mr. Mix, in your testimony you described how the NLRB has 
deviated from its original intent; to protect workers against 
unfair labor practices and determine whether or not they wish 
to be represented by a union.
    And aside from the fee-for-grievance method that we have 
just illustrated, can you outline some of the intimidation 
tactics that are being used in the workplace to pressure 
individuals into joining unions? And what can the Federal 
Government do to address this problem?
    Mr. Mix. Yes, there is lots there. You know, I think this 
debate has actually kind of migrated into the debate between 
unions and management. And, you know, when we wrote the Labor 
Code back in 1935, it was designed to be for employees.
    And unfortunately, we are no longer in that mode where the 
employees are a party. And even, in fact, all of us tend to 
slip into that context of saying this is a battle with union 
and management. It is not. The act was designed to protect 
individual employees.
    And let me just give you a quick example of the NLRB and a 
case we just got done with and at a company called NTB Bauer in 
Alabama. The workers there decided they wanted to decertify the 
union using the rules under the NLRB procedures to do that. In 
over two years, they had five different votes to do that. Four 
of those votes were won by the employees but challenged by 
organized labor. During that whole process, these workers were 
still compelled to be represented by that union that they had 
thrown out not once, not twice, not three times, but four 
times.
    This is an act that is being stacked against individual 
workers' rights. And that, fundamentally, is where we need to 
go back to determine whether or not these issues and these 
policies that they are gonna promulgate are favorable to 
workers. And I would suggest forcing workers to pay fees to an 
organization they did not ask for, did not vote for, did not 
want is coercive by nature, and it is clearly violative of the 
25 state right-to-work laws.
    Chairman Kline. Gentleman's time has expired.
    Mr. Takano?
    Mr. Takano. Thank you, Mr. Chairman.
    My question, Dr. Bruno or Dr. Gould, are either of you 
familiar with the role of training, the amount of training that 
unions provide to workers, especially in the building trades? I 
myself have visited the carpenter's union training facilities, 
and they are quite impressive.
    Is there any other entity that--for workers, especially in 
the construction trades, that finances that level of training?
    Mr. Bruno. Absolutely not.
    Mr. Takano. I have seen that some nonunion organizations 
who oppose, say, project labor agreements at a local level have 
said that, you know, that they provide that training as well, 
or that these local agreements discriminate against their 
workers in terms of their training. I find that to be kind of a 
specious claim.
    Mr. Bruno. Well, I think you are right to conclude that. 
When research has been done that looks at spending that is done 
in the joint apprenticeship training programs--again, keep in 
mind, these are union and employer-negotiated agreements and 
plans, as opposed to plans that are apprenticeship programs 
that are set up simply by employers unilaterally in the 
nonunion sector.
    And you do a dollar-for-dollar value, it isn't even close. 
The union sector spends almost the equivalent, if you were to 
just measure it, as if it were a university. They would have 
actually I believe the sixth largest number of students 
involved. And the contribution is in the billions of dollars.
    And when you look at the number of workers, when you 
compare apprentices in nonunion programs versus union programs, 
again, it is light years. Statistically, I am not even sure 
what the number would be. There are so many more unionized 
apprentices. So it is an embarrassing comparison, actually, for 
the non-union construction industry.
    Mr. Takano. So at least within this industry that I am--
    Mr. Bruno. Correct.
    Mr. Takano.--bringing up, and I could speak about other 
industries, a tremendous amount of their union resources that--
a lot of it is coming from the dues--is spent on training the 
skilled workers through levels of apprenticeships and a greater 
mastery.
    And something that I don't think people fully fathom or 
realize--and I think the American public would really benefit 
by actually going to a training center, seeing what happens. I 
have seen an entire ramp of a freeway; I had no idea how much 
carpentry went into that. And that ramp, the apprentices build 
that ramp, tear it down. And I was just amazed at the scale of 
the training programs we have.
    I also want to talk about, you know, it has been suggested 
here that unions were to blame for the demise of the auto 
industry in the Midwest. Can you comment on that? I mean, I 
recall that period of time of decline, that there were also 
some strategic blunders made by some of the executives. During 
the time when oil prices were rising, oil shock was happening, 
the Japanese introduced a lot smaller cars that the markets 
seemed to favor. Mr. Bruno, do you want to respond to that 
question?
    Mr. Bruno. Yes, thank you. I was hoping for an opportunity. 
And I should say, I grew up in a steelworking family in 
Youngstown, Ohio. My dad was a steelworker for over three 
decades, as were members of my extended family and my 
neighbors. And I have written a bit about the steel industry, 
for example. And I, you know, am really sensitive to the one 
Congressman's experience of having worked in the South Works. I 
worked in a steel mill in the summer. It is a much bigger 
picture.
    Let's talk about trade policy and how the degree in which 
policy has impacted and protected industries here, as opposed 
to the way European and Asian countries have treated their 
industries. Let's talk about currency exchange. Let's talk 
about decisions that the big three made, that they have readily 
admitted. You don't have to take my word for it. You can look 
at people--you can read people who have written about the auto 
industry and can talk about how tone deaf they were about the 
products that they were constructing.
    Mr. Takano. So my time is--so it is a bit hollow to sort of 
lay the blame at labor, I would say.
    Mr. Bruno. It is incredibly hollow.
    Mr. Takano. And Mr. Chairman, I yield back.
    Chairman Kline. Gentleman yields back.
    Mr. Rokita?
    Mr. Rokita. I thank the chairman. I thank the witnesses for 
their testimony this morning. I am learning a lot. My first 
question is I think is to the governor. Thank you for being 
here, especially.
    It seemed to me Mr. Bruno's testimony was mostly commenting 
on the negative economic effects of right-to-work. And I just 
to make sure that if you wanted to respond to any of that with 
any of your personal experience or from your state or anywhere 
else, I would like to hear it.
    Governor Ricketts. Sure. It is just not my experience in 
the real world, the practical world, that being a right-to-work 
state is a disadvantage. In fact, just the opposite; that being 
a right-to-work state was certainly one of the things that--
particularly when I was an executive, as I mentioned before, 
that was an important factor about where we were looking to 
expand. I think as companies look to see what their options 
are, it is an important tool to make sure they have 
flexibility. And frankly, that the people that work for them 
have flexibility. So I think it is an important thing there.
    And if you look at Nebraska, for instance, we have got the 
lowest unemployment rate in the country, 2.5 percent. As I 
mentioned, we have got a high workforce participation rate. We 
see a lot of economic things going on in our state that are 
very, very good.
    Mr. Rokita. Okay. Thank you, Governor.
    And switching across the row there to Mr. Mix. Is it safe 
to say you are fairly familiar with the construct of the 
generic CBA agreement, collective bargaining agreement?
    Mr. Mix. Yes. Yes.
    Mr. Rokita. Okay. There was some testimony in response to 
Congressman Grothman's questioning that I thought indicated 
that an employer could give a raise to individual employees 
under a collective bargaining agreement. Is that your 
understanding, or does that go against the whole nature of a 
collective bargaining agreement?
    Mr. Mix. Generally, under a collective bargaining 
agreement, a monopoly bargaining agreement, an employer would--
it could be an unfair labor practice if you decided to 
adjudicate some kind of a pay raise or any kind of a bonus to 
an individual employee. That is pretty well known. Yes.
    Mr. Rokita. Okay. Thank you. And following along with you, 
Mr. Mix, if I understand this right, under the collective 
bargaining agreement, the union likes to have sort of a 
monopoly over all the employees, whether they are unionized or 
in a right-to-work state, for example, nonunionized. And so 
they offer this grievance procedure. In fact, you have to go 
through this grievance procedure.
    And now, of course, the NLRB is saying well, there ought to 
be a charge to the nonunion employees for this grievance 
procedure. Isn't it possible at least from a legal standpoint 
that a union could just decide not to offer the grievance 
procedure to a nonunionized employee in the collective 
bargaining agreement?
    Mr. Mix. I am sorry. The question again? I didn't quite 
hear that question.
    Mr. Rokita. Yes.
    Mr. Mix. Is it--
    Mr. Rokita. Yes. So the collective bargaining agreement 
structure as I understand it covers all employees for the--
    Mr. Mix. Yes, sir.
    Mr. Rokita.--union or not.
    Mr. Mix. Yes.
    Mr. Rokita.--right?
    And then now the issue, of course, is the NLRB wants to 
charge a fee to the nonunion employees for the grievance 
procedure that the CBA covers--
    Mr. Mix. That is correct.
    Mr. Rokita.--right?
    Well, isn't it just as legally possible to have a CBA that 
excludes the union employee from the grievance procedure? Isn't 
that a way to resolve this?
    Mr. Mix. Yes. Yes. In fact, you know, union officials and 
actually the former chairman of the National Labor Relations 
Board, Bill Gould, he indicated and he understood that federal 
law allows union officials to represent members only. And we 
are beginning to have that debate in Chattanooga at the 
Volkswagen plant down there.
    The bottom line is the grievance process is part and 
parcel, it is wholly encapsulated by the bargaining agreement. 
In fact, it is simply the interpretation of the bargaining 
agreement that it is. If you are a nonmember, you didn't vote 
on the agreement, you didn't get a chance to because of your 
nonmember status--
    Mr. Rokita. Right. Right.
    Mr. Mix.--in a right-to-work state, but you have to accept 
it because of the exclusive bargaining monopoly privilege of 
the union.
    And so if you have a Venn diagram, you know, where the two 
circles intersect, the collective--the grievance process is 
entirely within the bargaining circle. It is not outside. It is 
not independent. It can't be adjudicated in a way that violates 
the contract.
    And it is the union that is the final arbitrator of whether 
or not it violates the contract. In fact, a worker can't go to 
a second step of appeal without the union's permission. And the 
union has the right to appeal any adjudication of a grievance 
and actually have it voided because it violates the contract. 
Those are the facts.
    Mr. Rokita. But that doesn't have to be.
    Mr. Mix. It doesn't have to be. They could represent their 
members only.
    Mr. Rokita. In the 30 seconds or so I can't--I don't have 
the clock right in front of me, but I see the yellow light.
    Tell me more about Chattanooga, what is going on down 
there.
    Mr. Mix. Yes, in Chattanooga the UAW announced that they 
had a majority of workers there and they wanted the company to 
accept a card check unionization, meaning we hand you these 
cards, you agree that these workers have said they want the 
union.
    And so they announced publicly that they had a majority. 
They couldn't prove it. No one saw them. We actually ended up 
representing several employees down there in Tennessee. They 
had a secret ballet election. The employees won the election 
voting against recognition by the UAW.
    The UAW has come back now with what is a member-only 
bargaining unit, Local 42. And they want to talk to the 
company, they want to talk to the company on behalf of their 
members, only their members. Now, ultimately, they are gonna 
ask for exclusive bargaining privileges. That is pretty clear 
that is where they want to end up. But they recognize the fact 
that they can have member-only bargaining there and speak for 
them.
    Chairman Kline. The gentleman's time has expired.
    Ms. Clark?
    Ms. Clark. Thank you, Mr. Chairman. And thank you to all 
the witnesses who are here today.
    My oldest son graduated from high school last Friday. And 
as I looked out on that stage with incredible pride as a mom, 
but also wondering about the future for these high school grads 
and the college graduations that I attended in my district, as 
well.
    I would describe my home state of Massachusetts as a right-
to-a-fair-shot state. We are a proud union state. We protect 
collective bargaining. And I looked at these high school 
seniors graduating, going off to make their world in the 
workplace or at college. And I thought about what they are 
facing; rise of income inequality, a rise of child poverty, and 
also a rise of corporate influence and power. Not only in the 
board rooms, but in the political process, as well. And I have 
to say that I believe this right-to-work is an incredible 
misnomer.
    But my question is for Dr. Bruno and Dr. Gould, what do you 
see the impact for these young people, for the people that we 
are trying to attract? And, by the way, I have never talked to 
a business that is thinking of leaving Massachusetts who has 
ever cited unions as a problem. High cost of housing, high cost 
of electricity, those are issues that we need to address. It is 
not unionization--that is making us a better and wealthier 
communities--that is ever cited as an issue.
    But how do you see these issues around health insurance 
coverage, pensions, and wages affecting our most recent 
graduates?
    Ms. Gould. Unfortunately, the class of 2015, the people you 
are talking about, those young high school graduates, those 
young college graduates, are entering a labor market that has 
still had many problems because of the Great Recession and its 
aftermath. And so that the wages of those workers are gonna be 
probably no higher than the class of 2000. So we have seen 
stagnant wages over the last decade and more.
    And I think that what we have seen overall over the last 30 
years is this decline in unionization, this decline in 
collective bargaining, has led to this great divergence between 
pay and productivity where young workers starting out, like 
workers across the economy, are not getting the wage increases 
that they would get if their wages rose with productivity.
    Ms. Clark. Thank you.
    I yield back.
    Chairman Kline. Gentlewoman yields back.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Chairman Kline and Ranking Member 
Scott for holding this important hearing today. And thanks to 
all the panelists for your testimony.
    In these current economic challenges, I believe that it is 
vitally important that our nation protect the rights of 
American workers; to achieve this goal, and to be effective, we 
must get through the demagoguery and allow the National Labor 
Relations Board to do its job.
    In many of the questions that have been asked, I can 
identify with the concerns that have been asked by my 
colleagues on both sides of the aisle. My first question is 
going to be to Dr. Elise Gould.
    What is the relationship between the rising inequality and 
stagnant wages? And what role does the decline in union density 
play in the wage stagnation and decline of the middle class?
    Ms. Gould. Right. So as I mentioned, unionization declined 
precipitously over the last 30 years. We saw the unionization 
rate overall go from about 26 percent down to about 13 percent 
in the economy. And stagnant wages for the vast majority 
explain the entirety of the rise of income inequality because 
of that pay productivity gap, that divergence between pay and 
productivity.
    That means that incomes are going somewhere. They are not 
going into wages for typical workers. They are going into the 
wages of the top 1 percent, into wages, into corporate profits. 
And a lot of this is the result of policy decisions. And for 
the most part, the abandonment of full employment policy, both 
monetary policy and fiscal policy and efforts that make it 
harder to form unions have meant that workers are not getting 
higher wages, even though we have a far more productive 
economy.
    Mr. Hinojosa. My next question would be to Professor Robert 
Bruno. Your testimony says that right-to-work can increase the 
poverty rate. What is the evidence for this?
    Mr. Bruno. A study that we did at the University of 
Illinois, and I think one of the congressmen also put into the 
record another report that was done.
    We took a good look at poverty rates across the country and 
correlated those with unionization rates and whether a state 
was a right-to-work state or a collective bargaining state. And 
what we found when we looked at all of those was that on 
average, poverty rates were lower in states that had free 
collective bargaining. And that if, in fact, you were to 
implement right-to-work in these collective bargaining states, 
for example, you would see an increase in poverty.
    And we projected that if it were to ever happen--and let's 
hope it doesn't in Illinois--that poverty rates would go up by 
at least 1 percent, which is actually quite sizable.
    Mr. Hinojosa. Next question to Mr. Mark Mix. Mr. Mix, in 
your testimony, you state your views of right-to-work. The 
question is whether you have provided an imprecise 
characterization of that term. Here is what your testimony 
says. ``Right-to-work is the simple freedom to choose whether 
or not to financially support the labor union that has imposed 
its monopoly power over you.''
    But section 14(b) of NLRA says something very different; 
and I quote, it says, ``Nothing authorizes the execution or 
application of agreements requiring membership in a labor 
organization as condition of employment in any state or 
territory where the state or territory prohibits such 
agreement.''
    So your description of right-to-work seems to overlook what 
we think is a key qualifier; mainly, section 14(b) of the NLRA, 
which allows states to pass laws that bar union dues as a 
condition of employment.
    Mr. Mix, isn't it the case that the first condition of 
employment is, indeed, a key qualifier?
    Mr. Mix. Congressman, if I understand the question, what I 
would say is that section 14(b) allows states to authorize 
right-to-work laws and control union security agreements. And 
it has been the history for the last 60 years, both at the 
Supreme Court level, the federal court level, and since 1953 at 
the National Labor Relations Board, to say that the forced 
payment of a grievance fee in a right-to-work state is--you 
can't do it under section 14(b) of the Taft-Hartley Act. The 
Supreme Court has said that, the federal courts have said that. 
And that is what the NLRB has said.
    And that is why we are here today, because ultimately, what 
we are gonna find is that when this rule comes out, we fully 
expect that the National Labor Relations Board position will be 
that they will not deem it a violation if a union decides to 
file--to charge a worker fees for a grievance. And I think that 
is the record in the courts going back to the Emporium case 
where, in the plumbers case from the D.C. circuit that said, 
you know, you can't do this. I think the litigation record and 
the record of the court is pretty clear. And I don't think that 
has been really in dispute here today.
    Chairman Kline. The gentleman's time has expired. I see 
that we have crossed the magic 12:00 timeframe, so we are 
drawing to a close. I would like to recognize Mr. Scott for any 
of his closing comments.
    Mr. Scott. Thank you, Mr. Chairman. And I thank the 
witnesses for their testimony.
    It is clear that everybody benefits when you have strong 
unions, higher wages, less inequality. It is better for the 
economy. And under right-to-work, those who are not members, 
not contributing anything to the dues get the same union 
representation without paying that those who have actually paid 
for the benefits; that is in higher wages, job security, 
pension, safe workplace. They get all the benefits that--paid 
for by members. They get to be freeloaders.
    This extends to the individual representation at a 
grievance. And the question before the NLRB is whether it 
should be illegal to require any payment from a nonmember for 
the individual representation they get at a grievance. Not the 
total cost of the grievance. Just any payment at all, whether 
or not that ought to be legal. That case is pending before the 
NLRB. They have asked for briefs, and whatever the decision--
whatever decision is made is subject to appeal. So we don't 
know what the decision will be or what the final outcome will 
be.
    But it is clear that some payment ought to be available to 
help offset the individualized costs to the union. But we will 
have to see.
    I yield back.
    Chairman Kline. Gentleman yields back. I want to thank the 
witnesses. Really good testimony. Thank you for traveling. 
Particularly you, Governor. Governor of a state, you are a 
very, very busy man. We appreciate you taking the time.
    And once again, we had the battle of statistics going on 
here. It tells me we have got to look at a lot more--listen to 
the testimony of Dr. Bruno and Dr. Gould about the cost to the 
state. And then I look at these statistics from the Bureau of 
the Census. Again, it says that the rate of welfare recipients 
in forced union states is over three times that what it is in 
right-to-work states. So it is a study that we are gonna look 
at, and it is incumbent upon us to take a look at these things.
    It seems clear to me, as I said in my opening remarks, that 
the National Labor Relations Board has got a clear agenda of 
growing private sector union membership at sort of any cost. 
And I disagree with my colleague who said that was kind of 
their job, because that is the way this sets up under the 
partisan nature of the NLRB, depending upon who is in the White 
House. And I dispute that. That is not what the NLRB is for, 
that is not what the National Labor Relations Act is for. It 
was to make sure that people have a fair say in whether or not 
they want to be in a union, whether those elections are 
conducted fairly.
    That is what the National Labor Relations Board is for. It 
is not to push an agenda. It is not to push regulations to 
bypass the actions of Congress. So we have some work to do 
here.
    Again, I want to thank you very, very much for joining us 
today. We are very, very grateful. There being no further 
business, we are adjourned.
    [Additional submissions by Mr. Bruno follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Additional submissions by Mr. Hewitt follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Whereupon, at 12:18 p.m., the Committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
